                                                   NATIONAL RAILROAD PASSENGER CORPORATION
                                                                           60 Massachusetts Avenue, NE, Washington DC 20002
                                                                                            tel 202 906.3000   tax 202 906.3306




                                                                                                          O.y  AIVlTRAK




   Date

     To
           September 2, 20 I 0                                From

                                                         Department
                                                                      T"Alwe
                                                                      OIG, Amtrak
                                                                                 ~cA-----.
           OIG Staff
                                                            Subject   NAPA RepOlt
                                                                 cc




Message   . Nation   Academy of Public Administration (NAPA) Report

           Earlier this year, I asked the National Academy of Public Administration (NAPA) to conduct an
           organizational assessment of the Amtrak Office ofinspector General. The assessment was
           intended to help us implement the goals in our strategic plan by identifYing our core
           organizational strengths and weaknesses and developing specific, prioritized actions to improve
           OIG processes, policies, and management practices. NAPA assembled an expeIt panel and a
           project team to conduct the assessment and provided a written repOlt of their assessment on
           August 31, 2010 (Attached).

           NAPA's report contains observations and recommendations that are focused on eight areas where
           the assessment showed that the Amtrak OIG can enhance its operations. The eight areas are:

               •     Internal Communication
               •     External Communication
               •     Work Planning and Prioritization
               •     Quality and Timely Work Processes
               •     Independence
               •     Policy Management and Updates
               •     Human Capital Management
               •     Performance Measures

            For each of these areas, NAPA identifies: a desired future state; the views ofOIG senior staff,
            employees, and external stakeholders on the OIG's strengths and weaknesses relative to the future
            state; best practices used by other OIG's; and immediate and longer term recommendations to
          . achieve the future state.

           The senior leadership of the OIG and I have reviewed the NAPA report and concur with the
           immediate and longer term recommendations offered in each ofthe eight areas. We will begin
           the process of assessing the actions needed to implement the recommendations and have set a
           goal of developing an action plan in the next 60-90 days.
 Page 2




· In developing an action plan we will also consider the results of the recently completed Quality
  Assurance Reviews of the Offices ofinvestigations and Audits. These reviews identified issues
  and recommendations related to several of the areas discussed by NAPA, so considering them
  collectively will help ensure that our plan is comprehensive in addressing the areas where we can
  enhance our operations.

  Developing and implementing an effective action plan will require a concerted effort by all OIG
  employees. To this end, members of the senior leadership team have volunteered to serve as
  sponsors for each of the eight areas and we will solicit volunteers from across the OIG to work
· with the sponsors in developing and implementing the plan; please let us know if you are
  interested in patiicipating in this initiative. Broad-based patiicipation throughout OIG will
  improve the quality of our effotis and help in developing a common understanding of the
  rationale for enhancing our operations. We have also engaged NAPA to assist us in developing
  actions for some portions of the plan with the highest levels of priority and urgency.

  We greatly appreciate the effotis of the NAPA panel and project team in conducting the
  assessment of our office. The project team members conducted the assessment in a timely,
· effective and professional manner and our interactions with them and the panel members were
  enlightening. The repoti provides an excellent framework for helping us implement the goals and
  objectives in our strategic plan of becoming a model OIG.

 I look forward to working with each of you as we undetiake the next phase of this critical
 initiative.
A Phase One Report by a Panel of the

NATIONAL ACADEMY OF
PUBLIC ADMINISTRATION
For Amtrak’s Office of Inspector General

August 2010




    The Amtrak Office of Inspector General
                  An Organizational Assessment




                               PANEL

                         John Kamensky, Chair*
                            Cheryle Broom*
                           Harold Steinberg*
                         Regina V.K. Williams*




                                                 * Academy Fellow
                                                                        Officers of the Academy
                                                           Kenneth S. Apfel, Chair of the Board
                                                                  Timothy B. Clark, Vice Chair
                                          Jennifer L. Dorn, President and Chief Executive Officer
                                                                     Diane M. Disney, Secretary
                                                                    John J. Callahan, Treasurer


                                                                              Project Staff Team
                                                              Lena E. Trudeau, Vice President
                                                                Lois Fu, Program Area Director
                                                            Elizabeth Frazier, Project Director
                                                                 Brenna Isman, Senior Advisor
                                                                  Robert Giusti, Senior Advisor
                                                          Leslie Overmyer-Day, Senior Analyst
                                                               Chloe Yang, Research Associate
                                            Martha S. Ditmeyer, Senior Administrative Specialist
                                                                 William P. Shields, Jr., Editor


________________________________________________________________________

The views expressed in this report are those of the Panel. They do not necessarily reflect the
views of the Academy as an institution.

National Academy of Public Administration
900 7th Street, N.W.
Suite 600
Washington, DC 20001-3888
www.napawash.org

Published August 2010
Printed in the United States of America

Academy Project Number: 2279
                                                   TABLE OF CONTENTS

EXECUTIVE SUMMARY .......................................................................................................... 5
BASELINE SUMMARY .............................................................................................................. 7
BACKGROUND AND METHODLOGY................................................................................... 9
  BACKGROUND ........................................................................................................................ 9
  METHODOLOGY ................................................................................................................... 10
  CORE STRENGTHS OF THE OFFICE OF THE INSPECTOR GENERAL......................... 12
  ORGANIZATION OF THIS REPORT.................................................................................... 13
BENCHMARK AREAS ............................................................................................................. 15
  Benchmark Area #1 INTERNAL COMMUNICATION ......................................................... 15
    Future State ........................................................................................................................... 15
    Observations and Discussion ................................................................................................ 15
    Recommendations................................................................................................................. 17
  Benchmark Area #2 EXTERNAL COMMUNICATION ........................................................ 18
    Future State ........................................................................................................................... 18
    Observations and Discussion ................................................................................................ 18
    Recommendations................................................................................................................. 19
  Benchmark Area #3 WORK PLANNING AND PRIORITIZATION ..................................... 21
    Future State ........................................................................................................................... 21
    Observations and Discussion ................................................................................................ 21
    Recommendations................................................................................................................. 23
  Benchmark Area #4 QUALITY AND TIMELY WORK PROCESSES.................................. 24
    Future State ........................................................................................................................... 24
    Observations and Discussion ................................................................................................ 24
    Recommendations................................................................................................................. 26
  Benchmark Area #5 INDEPENDENCE................................................................................... 28
    Future State ........................................................................................................................... 28
    Observations and Discussion ................................................................................................ 28
    Recommendations................................................................................................................. 29
  Benchmark Area #6 POLICY MANAGEMENT AND UPDATES ........................................ 30
    Future State ........................................................................................................................... 30
    Observations and Discussion ................................................................................................ 30
    Recommendations................................................................................................................. 31
  Benchmark Area #7 HUMAN CAPITAL MANAGEMENT .................................................. 32
    Future State ........................................................................................................................... 32
    Observations and Discussion ................................................................................................ 32
    Recommendations................................................................................................................. 36
  Benchmark Area #8 PERFORMANCE MEASURES ............................................................. 38
    Future State ........................................................................................................................... 38
    Observations and Discussion ................................................................................................ 38
    Recommendations................................................................................................................. 39
A PATH FORWARD ................................................................................................................. 41
                                                      APPENDICES

Appendix A. Content Analysis OIG Senior Staff Interviews................................................ A-1
Appendix B. Content Analysis OIG Stakeholder Interviews ............................................... B-1
Appendix C. Summary of Staff Survey Results ..................................................................... C-1
Appendix D. Benchmarking with Other OIGs ...................................................................... D-1
Appendix E. Baseline Summary .............................................................................................. E-1
Appendix F. Crosswalk to Strategic Goal Six ........................................................................ F-1
Appendix G. Bibliography .......................................................................................................G-1
Appendix H. Panel Biographies...............................................................................................H-1
                                 EXECUTIVE SUMMARY

Amtrak’s new Inspector General (IG) has voiced strong commitment to refocusing and
reinvigorating the Office of Inspector General (OIG), and has recognized the need to maximize
its internal efficiency and effectiveness to successfully deliver its mission. Fundamentally, OIG
work is aimed at improving Amtrak’s management, operations and delivery of services to the
public and ensuring responsible stewardship of public funds.

This report by an expert Panel of the National Academy of Public Administration is the result of
an organizational assessment requested by the Amtrak OIG. The Panel and project team
commend the OIG for commissioning this independent assessment, which was not undertaken
with a predetermined outcome in mind, but inspired by a commitment to continuous
improvement and embracing industry best practices. The work of the OIG is intended to satisfy
an important need at Amtrak and provide value to its stakeholders. Room for improvement
exists in every organization; that is the principle that guided this work.

In this report, the Panel makes observations and recommendations in eight benchmark areas. For
each area, the report defines the desired future state, summarizes Amtrak OIG’s strengths and
weaknesses related to the future state, and recommends immediate “quick win” next steps as
well as longer term recommendations. Progress in these areas will significantly contribute to
operational improvement. In addition, these recommendations reflect practices that industry-
leading OIGs have instituted, while accounting for Amtrak OIG’s unique needs, progress made
to date and the organization’s capacity constraints.

Becoming a model OIG is a process, and multiple interim steps must occur before the desired
future state can be achieved. In order to meet OIG industry standards and perform work of higher
value to Amtrak and its stakeholders, the OIG will need to develop different skill sets in order to
perform work that meets industry standards. OIG employees must be both willing and able to
make the necessary changes in work performance, and leadership must be prepared to make
difficult decisions, should employees be unable or fail to embrace the necessary changes.

FUTURE STATE OF BENCHMARK AREAS

   •   Internal Communication. Amtrak OIG is an organization with effective internal
       communication strategies that allow all OIG staff to be informed and invested in
       achieving a high-performance, high-accountability organizational mission.
   •   External Communication. Amtrak OIG has constructive relationships with Amtrak and
       congressional stakeholders that enable it to gather and share information about potential
       areas of risk, while maintaining independence and transparency.
   •   Work Planning and Prioritization. Amtrak OIG has a work planning and prioritization
       process that engages stakeholders in identifying and reducing areas of perceived risk, and
       fully assesses the nature, scope and inherent risks of Amtrak programs and operations.
       This process identifies high value work that provides strategic value to Amtrak and
       enables OIG to more effectively allocate its resources to this work.



                                                5
   •   Quality and Timely Work Processes. Amtrak OIG consistently follows commonly
       accepted work practices and standards both within functional areas and across locations.
       Work adheres to established quality standards and, as appropriate, is accessible and
       transparent to OIG staff.
   •   Independence. Amtrak OIG has an independent and transparent relationship with its
       stakeholders, in accordance with the letter and spirit of the Inspector General Act and
       applicable industry standards. Each stakeholder group has a clear understanding and a
       practical, applied definition of what it means to have transparent interactions with an
       independent OIG.
   •   Policy Management and Updates. Amtrak OIG maintains and applies current, accurate
       and consistent policy across the office; has a process to monitor changes in the external
       environment that affect its work practices and a mechanism to incorporate those changes
       into internal policy; and makes all guidance easily accessible to staff.
   •   Human Capital Management. Amtrak OIG attracts and retains high-performing
       employees; has consistent job titles and job descriptions; and has in place training plans
       and performance management plans that link individual performance to OIG objectives.
   •   Performance Measures. Amtrak OIG has performance metrics that reflect the
       requirements of the Inspector General Act; meet the expectations of GAO and Congress;
       reflect the value of OIG work to Amtrak; and align with OIG strategic goals. These
       metrics are integrated into OIG’s operating and performance management systems.

For each of these eight future states, the Panel has identified both “quick win” opportunities as
well as longer term recommendations that the OIG should implement. These “quick win”
opportunities and longer term recommendations are listed in each of the eight sections, as well as
at the conclusion of the report.

It is important to note that the IG’s willingness to engage staff and stakeholders in this
organizational assessment––indeed, in the candid process of identifying areas for
improvement—enhanced the office’s credibility among many stakeholders. All of the
stakeholders who were part of the assessment want the Amtrak OIG to succeed, and appear
willing to work together to make that happen and support the difficult decisions that may need to
be made. At a time when the entire federal government is tasked to work more efficiently,
collaboratively and effectively on behalf of the American people, it is noteworthy that the
leadership of this key oversight organization has recognized the importance of leading by
example and is prepared to make the necessary changes to do so.




                                                6
                                                            Baseline Summary

Current State                         Case for Change                                   Future State

 OIG historically had minimal         New IG and leadership team hail from high-       Has effective internal communication strategies that allow all OIG
  communication between and             performing OIGs; can educate and                  staff to be informed and invested in achieving a high-performance,
  among Executive team and              communicate “what a successful OIG does”          high-accountability organizational mission.
  functional groups                     to Amtrak, OIG employees, and stakeholders       Has constructive relationships with Amtrak and Congressional
 New members of Executive             Culture of fear and anxiety is not healthy or     stakeholders that enable it to gather and share information about
  team have been well received by       sustainable                                       potential areas of risk, while maintaining independence and
  staff, and IG made a good            Many OIG employees express desire to do           transparency.
  number of early wins that won         higher-quality work that they can take pride     Has a work planning and prioritization process that engages
  him credibility with stakeholders     in, and welcome learning about OIG best           stakeholders in identifying and reducing areas of perceived risk,
                                        practices                                         and fully assesses the nature, scope and inherent risks of Amtrak
 Staff waiting to see what
  changes leadership plans to          Investigators’ firearms were revoked;             programs and operations.
  undertake. Staff feel they have       minimally passed CIGIE peer review; lack of      Consistently follows commonly accepted work practices and
                                        clarity about need for Amtrak OIG since DOT       standards both within functional areas and across locations. Work
  received little communication         OIG is viewed as strong….OIG needs to
  about vision & next steps, so                                                           adheres to established quality standards and, as appropriate, is
                                        change lest it be taken over                      accessible and transparent to OIG staff.
  there is fear about anticipated
  change and job security                                                                Has an independent and transparent relationship with its
                                                         CASE FOR                         stakeholders, in accordance with the letter and spirit of the IG Act
 Recognized need by OIG staff                            CHANGE
                                                           ROADMAP
                                                                                          and applicable industry standards. Each stakeholder group has a
  and stakeholders that OIG needs                                     FUTURE
                                               CURRENT                 STATE
                                                                                          clear understanding and a practical, applied definition of what it
  to start doing higher-value work
                                                           BA




                                                STATE                                     means to have transparent interactions with an independent OIG.
                                                             RR




  of impact to Amtrak, and to
                                                               IE




                                                                                         Maintains and applies current, accurate and consistent policy
                                                                 RS




  follow consistent, quality
                                                                                          across the office; has a process to monitor changes in the external
  processes
                                                                                          environment that affect its work practices and a mechanism to
 OIG has had limited
  communication with                  Barriers                                            incorporate those changes into internal policy; and makes all
                                                                                          guidance easily accessible to staff.
  stakeholders. Stakeholders –                                                           Attracts and retrains high-performing employees; has consistent
                                       Culture of limited communication and
  both Amtrak and Hill - feel that      “information/resource hoarding”                   job titles and job descriptions, and has in place training plans and
  historically they have been                                                             performance management plans that link individual performance
  alerted to issues too late           Perception that different OIG staff might
                                        have different agendas; despite vocalized         to OIG objectives.
 Independence of OIG and               support for new OIG direction, all employees     Has performance metrics that reflect the requirements of the IG
  relationship with the Board has       might not be willing to make necessary            Act, meet the expectations of GAO and Congress, reflect the
  been strengthened since IG            changes                                           value of the OIG work to Amtrak; and aligned with OIG strategic
  hire…need to institutionalize        While recognized need to do more strategic        goals. These metrics are integrated into the OIG’s operating and
  processes so no “slippage”            work, anxiety about what this means for job       performance management systems.
                                        security and day to day routines
                                       Many OIG near retirement and may not
                                        welcome changes
This Page Left Intentionally Blank




                8
                          BACKGROUND AND METHODLOGY
BACKGROUND

Created by the Rail Passenger Service Act in 1970, the National Railroad Passenger
Corporation—better known as Amtrak—is a government-owned corporation providing intercity
passenger rail service in the United States. Because Amtrak receives significant federal funding,
Congress established an Office of Inspector General (OIG) for it in 1989. The OIG’s mission is
to “conduct and supervise independent and objective audits, inspections, evaluations and
investigations relating to agency programs and operations; promote economy, effectiveness and
efficiency within the agency; prevent and detect fraud, waste and abuse in agency programs and
operations; review security and safety policies and programs; and review and make
recommendations regarding existing and proposed legislation and regulations relating to
Amtrak’s programs and operations.” 1

Amtrak’s Inspector General (IG), one of 30 Designated Federal Entity IGs, is appointed by and
reports to the corporation’s Board Chairman. Headquartered in Washington, DC, OIG has field
offices in Baltimore, Boston, Chicago, Los Angeles, New York, Philadelphia and Wilmington,
Delaware. It is organized into five areas of responsibility: Audits, Inspections and Evaluations,
Investigations, Management and Policy, and Counsel to Inspector General. Figure 1 shows
OIG’s current organizational structure.

                          Figure 1: Amtrak OIG Organizational Chart 2




1
    http://www.amtrakoig.gov/%28S%28g1ug5aqqeo3qp145lnqh1dzi%29%29/About.aspx
2
    http://www.amtrakoig.gov/%28S%280zdcduq0szwzahrzqrypknmw%29%29/About.aspx?option=3



                                                  9
In addition to its internal stakeholders, OIG must provide information to external decision
makers in an efficient, reliable and useful manner. Its work is aimed at improving Amtrak’s
management, operations and delivery of services to the public and ensuring responsible
stewardship of public funds.

Following 20 years under the leadership of its first and only IG, Amtrak launched a
comprehensive search for a successor after his unexpected retirement in June 2009. This period
of uncertainty heightened a longstanding debate between Amtrak management and the OIG
regarding the latter’s operational independence. Further, an Audit peer review concluded in
September 2009 found that OIG’s policies and procedures were outdated and did not fully
incorporate current Government Auditing Standards.

The Amtrak Board’s desire to transform OIG into an industry-leading model led to the
appointment of Ted Alves, a seasoned member of the IG community, as its IG in November
2009. Critical changes were undertaken within the first six months of his tenure. A Deputy IG
position and separate Investigations Division were created, and an Assistant Inspector General
for Investigations and Acting Assistant Inspector General for Audits were appointed. OIG also
completed a Strategic Plan for Fiscal Year 2010-2014, which aligns its goals with Amtrak’s
mission and goals. Notably, OIG added a sixth goal related to internal operations: “Leading by
example as a model OIG organization.”

Recent changes have also affected OIG’s annual appropriations and relationship with Amtrak
management. Previously, OIG submitted its budget request to Congress as part of Amtrak’s
annual grant request. To maintain OIG independence and a productive relationship with Amtrak,
Congress determined that OIG should no longer rely on the corporation for its funding. The
Consolidated Appropriations Act of 2010 authorized a direct appropriation of $19 million for
OIG. The act required that Amtrak management and OIG develop a set of relationship policies
and procedures that “are consistent with the letter and the spirit of the Inspector General Act of
1978.” In 2010, the Council of the Inspectors General on Integrity and Efficiency (CIGIE)
confirmed that the new jointly developed policies and procedures complied with the letter and
spirit of the act.


METHODOLOGY

The new leadership team has exhibited a strong commitment to refocusing and reinvigorating
Amtrak OIG, and has recognized the need to maximize its internal efficiency and effectiveness
to successfully deliver its mission. To that end, it engaged the National Academy of Public
Administration to conduct an independent assessment of its current operations and identify
business process improvements to help it become a model OIG. The overall project
encompasses this organizational assessment and an option to develop selected implementation
roadmaps.

The National Academy formed an expert Panel to direct and oversee the study and a study team
to conduct the work. The team employed a straightforward approach to the organizational




                                               10
assessment that formed the basis for the Panel’s observations and recommendations. It was built
around the following key questions:

   •   Where are we? Defining the “as is” state of the organization.
   •   Where do we need to be? Addressing the future state.
   •   What is keeping us from it? Identifying barriers or challenges to achieve the future state.

Figure 2 summarizes this approach.

                                  Figure 2: Project Approach




The organizational assessment, conducted between April and July 2010, relies on data from
multiple sources, including:

   •   Interviews with 17 OIG senior team and staff members who participated in strategic plan
       development;
   •   Interviews with 22 OIG stakeholders, including representatives of the Amtrak leadership
       team, members of the Amtrak Board of Directors, OIG consultants, and congressional
       committee staff;
   •   Interviews with 11 representatives of comparable OIGs considered “high performing”
       within the IG community;
   •   A survey of all OIG staff (91 total), which generated a 90 percent response rate; and
   •   An extensive review of relevant documents, including strategic plans, CIGIE reports, the
       2009 audit peer review and IG congressional testimony.



                                               11
The four-member Academy Panel held two formal meetings, provided guidance concerning the
study team’s research and analysis, and deliberated and approved the report’s findings,
conclusions and recommendations. Appendix H provides the names and biographies of the
Panel members.


CORE STRENGTHS OF THE OFFICE OF THE INSPECTOR GENERAL

The organizational assessment identified a number of strengths of the Amtrak OIG that can be
leveraged in addressing its challenges. Data sources, including the staff survey and OIG and
stakeholder interviews, support a consensus around these indicators of the OIG’s strengths, and
also yield a number of associated weaknesses.

Strong New Leadership

Nearly all stakeholders and members of the OIG senior staff who were interviewed identified the
new IG and members of his leadership team as core strengths of the office. It is widely
recognized that many members of the leadership team come from high-performing OIGs, where
they earned a great deal of credibility. Specific actions or leadership traits cited as providing
value to the Amtrak OIG include:

   •   Reorganizing to streamline operations and promote effectiveness.
   •   Committing to development of a solid foundation and operating framework.
   •   Filling key senior positions with well-qualified professionals.
   •   Changing the type of work that the office performs to include more strategic work of
       higher value to Amtrak.
   •   Committing the office to a consistent and high standard for performing work.
   •   Strengthening relationships with stakeholders through ongoing outreach.

Staff and stakeholders expressed optimism that the new IG and his team will be able to translate
best practice and industry standards from other OIGs to Amtrak, and indicated positive reactions
to the changes they have seen thus far.

Interviewees also noted that this independent organizational assessment reflects the new
direction that the IG is taking the office and is viewed by stakeholders as a bold and
commendable action.

OIG Staff

Survey results and staff interviews indicated that Amtrak OIG staff have significant areas of
strength. Examples provided include staff’s deep knowledge of railroad operations and
commitment to the organization. Some interviewees identified specific individuals who exhibit
exceptional capabilities and positive attitudes. It is interesting to note, however, that while the
majority of staff survey respondents indicated that they felt motivated and inspired to do their
best work, many OIG senior staff, Amtrak leadership, and stakeholder interviewees voiced the
concern that many of the OIG staff may be resistant to change and may not be motivated to


                                                12
perform higher-value and higher-quality OIG work. If true, these individuals will require
management’s attention to avoid a negative influence on the culture or impede the success of the
changes needed.

Knowledge of Railroad Operations

Knowledgeable staff was cited as a noteworthy attribute. To properly evaluate Amtrak
operations, many believe it is imperative to understand them. Many OIG survey respondents (36
percent) were Amtrak employees prior to joining OIG. However, what is perceived as a core
strength by some is cited a weakness by others as OIG staff could be less than objective or may
overstep into management affairs. It was noted that many OIG staff have not been trained on
standard OIG work processes and may not fully understand the limits that a staff member of the
OIG must adhere to with regard to advising or participating in management decisions. Some
interviewees cited instances in which OIG employees inappropriately participated in Amtrak
management decision making, and have acted in a more directive role than is appropriate.

Value of the Office of the Inspector General

Finally, there is the perceived value of the OIG itself. Stakeholders were asked about the value
that the office brings to the Amtrak organization and the impact of its work. Respondents
believed that, in some cases, OIG has helped to identify and translate best practices in managing
infrastructure assets, and mentioned specific reports that were helpful. Overwhelmingly,
interviewees valued the external, objective perspective that the OIG could offer (as opposed to
what it currently does offer), noting that the office could add objective perspectives not
otherwise available. It was noted that a high-functioning OIG could help Amtrak staff identify
emerging issues before they develop into real problems, and “connect the dots” among Amtrak
units, since OIG can develop the overarching perspective necessary to detect high-level trends.

The positive attitude among Amtrak staff and OIG stakeholders about the increased value that a
high-performing OIG could offer is an important foundation for performance improvement
efforts.


ORGANIZATION OF THIS REPORT

This report is divided into eight benchmark areas. For each area, the Panel defines the future
state, discusses Amtrak OIG’s strengths and weaknesses, and recommends immediate “quick
win” next steps as well as recommendations that will take longer to implement.

The data collection process surfaced strengths, opportunities, weaknesses and risks with respect
to Amtrak OIG operations. The practices of benchmarked OIGs are integrated into the
observations and discussion sections to illustrate opportunities for improvement or potential risks
to current practices.

The Panel believes that its “quick win” and longer term recommendations will contribute
significantly to OIG’s operational improvement. The recommendations reflect practices that



                                                13
industry-leading OIGs have instituted, yet take into account OIG’s unique needs, progress made
to date and existing capacity constraints.




                                             14
                                   BENCHMARK AREAS

Benchmark Area #1
INTERNAL COMMUNICATION


Future State

Amtrak OIG is an organization with effective internal communication strategies that allow all
OIG staff to be informed and invested in achieving a high-performance, high-accountability
organizational mission.


Observations and Discussion

A strong majority of OIG staff and stakeholder interviewees felt that the Amtrak IG began his
tenure with an open door policy, which has helped begin to break down information silos and
promote sharing across OIG units. In addition, the IG has begun to actively engage OIG staff;
for example, a March 2010 all-hands meeting outlined the development of the OIG strategic plan
and steps to achieve its goals.

An inclusive, comprehensive and visible communication style, which includes regular all-staff
meetings, characterizes all the benchmarked OIGs. In these highly respected OIGs, leaders
exhibit strong, positive working styles and conduct frequent conversations and meetings with
staff. Nonetheless, these OIGs indicated that communication among auditors and investigators
was an ongoing challenge. One remarked that employing cross-functional teams in a meaningful
way helped to improve communication across the units. Another uses informal multi-unit
teleconferences to ensure that offices in disparate locations touch base with each other and
discuss issues on a regular basis.

Nearly three quarters of staff survey respondents were highly satisfied with their immediate
supervisors’ communication of OIG goals and priorities. The same proportion had a generally
positive view of their own managers’ ability to see the “big picture” across audits, investigations
and evaluations, as well as their understanding of the full range of programs across Amtrak. This
attribute is fundamental to transparency, a key priority that several benchmarked OIGs
highlighted. One benchmarked IG emphasized the importance of making every OIG report
available to all staff to foster an open culture of information sharing and learning.

Historically, Amtrak OIG’s culture has inhibited the information sharing necessary for a model
OIG. Several interviewees observed that information flows within Amtrak OIG were on a need-
to-know basis and that some OIG employees tried to “hoard” information and staff resources;
this led to a culture based on rumor, suspicion, and frustration. Neither managers nor staff
routinely shared information and, as a result, the OIG was unable to capitalize on information
that could have been available through both regular and informal information sharing



                                                15
opportunities. Field offices, in particular, are not well integrated into the operations of the OIG,
and they have had limited communication or interaction with HQ employees.

Recent developments have started the process of open communication at Amtrak OIG—staff
were encouraged by the March all-hands meeting, for example—but communication across the
entire OIG still does not occur with regularity. Many attendees expressed the opinion that the
all-hands meeting was too “scripted” and that communication within and from senior leadership
could be improved. Survey respondents were significantly less satisfied with communication
from senior leadership than from their direct supervisors. Forty-nine percent agreed or strongly
agreed that, “The Executive Team effectively communicates the goals and priorities of the OIG,”
compared with 73 percent who agreed with that statement regarding communication with their
direct supervisor.

Benchmarked organizations conduct ongoing communication both within and across functions,
including sharing weekly activity reports and functional report drafts with other groups for
comment. Technology is an effective tool to enable internal communication, but it has not been
effectively utilized to date in Amtrak OIG. There is now a secure subnet that could potentially
serve as an internal Intranet, but employees do not use it regularly, and interviewees were not
confident that it would provide a dynamic, two-way communication mechanism. In contrast,
benchmarked OIGs view their Intranet as a communication mechanism and performance support
tool; most staff access it at least weekly. One benchmarked OIG created a blog on its Intranet for
senior leaders to share information with staff and enhance two-way communication among all
staff, regardless of location.

Leadership reported that Amtrak OIG historically has struggled with communicating
organizational progress and staff accomplishments in an impactful manner. Amtrak OIG
leadership should not be shy about sharing good news with OIG staff in order to help build pride
and confidence in the new organization. For example, an intranet site could be used to share
such items as the positive feedback received from the Amtrak President and Board Chairman on
a recent IG report. Dashboards and other regular reports can also be effective. One
benchmarked OIG reported that he meets weekly with each division head and division leadership
to discuss on-going work and to review open cases and a multi-colored spreadsheet depicting
progress on audits and work streams. Another sends a weekly communication that includes
information about promotions, open positions, and new hires, as well as birthdays, marriages and
births.




                                                16
Recommendations

Quick Wins:

   1. Institute regular top-down communication practices, including a monthly email to all
      staff that highlights on-going work, employee achievements, and OIG successes.
   2. Conduct regularly scheduled (at least monthly) AIG unit meetings to discuss new work
      and progress on current work, emerging issues, current events, etc. The IG and/or
      Deputy IG should attend these meetings on a rotating basis. In addition, the IG/Deputy
      should attend meetings at which the AIG and his/her staff will be making critical go/no-
      go decisions regarding ongoing work, so that staff recognizes such milestones are
      important and that leadership is engaged in the newly developed Audit processes.
   3. Hold at least two all-staff meetings per year that include an opportunity for staff to make
      presentations, ask questions of leadership, and recognize high-performing employees.
   4. Develop mechanisms to allow OIG staff to give feedback to management.

Longer Term Recommendations:

   5. Make more effective use of technology and face-to-face meetings to strengthen internal
      communications and build a culture of transparency and information sharing. It should
      explore the following mechanisms to do so:
          •   Create and actively populate an Intranet site (secure subnet) with report and
              process information that will enable more productive and efficient workflow.
          •   Contribute to Amtrak’s monthly internal publications to communicate about OIG
              work efforts and celebrate staff successes and milestones.
          •   Develop visual dashboards and representations of ongoing work to communicate
              the status of organizational activities.
          •   Have members of senior leadership conduct a number of field visits and divisional
              staff meetings annually.
          •   Adhere to a regular schedule of senior staff meetings and office-wide meetings,
              utilizing video conferencing capability if possible.
          •   Build a measure regarding internal communication and information sharing into
              employee accountability plans.




                                              17
Benchmark Area #2
EXTERNAL COMMUNICATION


Future State

Amtrak OIG has constructive relationships with Amtrak and congressional stakeholders that
enable it to gather and share information about potential areas of risk while maintaining
independence and transparency.



Observations and Discussion

Stakeholders were optimistic about the positive start to their relationship with the new IG. Many
noted that the IG has done an excellent job at reaching out to them and has built a great deal of
goodwill and credibility thus far. They are eager to see examples of how OIG’s work will be
different once the IG and his leadership team are able to initiate work under new guidelines and
leadership.

The Amtrak Board has been pleased with the new IG’s communication of OIG activities during
Board meetings, and has increased time allotted on its agenda from 30 minutes to one hour. This
time provides an ideal opportunity for the IG to discuss ongoing areas of concern with the Board,
as well as to gain a better understanding of perceived areas of risk from the governance
perspective. This time should be viewed by both parties as an opportunity for discussion, not
simply a presentation by the IG. Transparency is critical to building trust and confidence, even
when the IG must refrain from sharing specific information about ongoing work.

Congressional stakeholders voiced similar optimism that the Amtrak IG will act boldly and focus
on issues of substance moving forward. The IG and his congressional liaison meet regularly
with congressional staff to proactively engage them in discussions of concern. The new IG also
has strong experience and credibility within the OIG community, which can be leveraged when
educating Amtrak stakeholders about OIG roles and responsibilities.

At the same time, numerous shortcomings must be addressed, both from a structural perspective
and an educational dimension. OIG does not have an established process with standardized
timeframes for providing updates to stakeholders. For example, as subjects of a report, some
have not had the opportunity to comment prior to public release. One interviewee characterized
past practice by saying that auditors simply “disappeared” once an engagement started, gave no
progress reports, and then re-emerged following a significant period of time. All stakeholders
indicated that they would like to know how and when OIG will communicate with them going
forward, so it will be particularly important to establish clear expectations about interaction
during audits and other OIG engagements.  

In addition, many stakeholders at Amtrak said they and their staffs would benefit from a clearer
understanding of the roles and responsibilities of an independent, high-performing OIG. Board



                                               18
member interviewees also said they could benefit from learning more. Two senior management
team members also noted that it would be beneficial to clearly define and communicate OIG
roles and responsibilities to internal and external stakeholders. An “OIG 101” presentation or
brochure may be especially helpful in this regard.

There is a perception that some stakeholders are given more information than others. Some
Amtrak staff and Board members believe that Congress sometimes has received critical
information without the opportunity for Amtrak to respond. Meanwhile, congressional
interviewees thought that they received information only when an issue became critical and it
was too late to effectively resolve it. Given that each stakeholder group believes the other is
armed with more information than the other, it is imperative that the Amtrak OIG maintains
consistent, transparent communication. One benchmarked OIG issues a monthly or quarterly
“issues and highlights report” to both agency management and Hill stakeholders in order to
minimize the perception that information is unevenly shared.

With much credit due for recent progress, communications with Congress must be conducted in
an increasingly responsive and proactive manner that can produce maximum benefit for Amtrak
OIG, including established timeframes for sending OIG reports to the Hill. One benchmarked
OIG sends reports to Congress concurrent with public release and has the project team brief
relevant staffers. This not only ensures regular and productive communications with the Hill, but
also engages and motivates OIG staff. Developing candid and productive relationships with key
Senate and House staff presents an opportunity to manage contentious issues more effectively.


Recommendations

Quick Wins:

   6. Develop a practical, “applied” definition of independence and a succinct statement of the
      benefits and value of an independent OIG for use with the OIG staff, Amtrak Board of
      Directors, and Amtrak Senior Management. This would serve to clarify the nature of
      OIG’s work and help build support for its transformation.
   7. Once new work processes are established this fall, OIG leadership should meet with both
      Amtrak and Congressional stakeholders to brief them on the new processes, and let them
      know how and when each of them can expect to receive updates, be part of an official
      comment period, and/or receive information and reports.

Longer Term Recommendations:

   8. Establish standard procedures for reporting to external stakeholders. It should carefully
      develop a manageable list and schedule of regular updates (both oral and written),
      examples of which may include the following:
           •   Develop a standard reporting instrument and structure for congressional
               stakeholders.



                                               19
       •   Author a monthly column in the Amtrak newsletter. (This does not have to be
           authored by the IG each month; AIGs, project leaders and other staff could
           contribute.)
       •   Provide regular written updates to the Amtrak Board to supplement meeting
           presentations; these could also be sent to management and Congress to promote
           transparency.
       •   Establish protocols for communicating with the Board, management and
           congressional staff, utilizing key technology resources.
       •   Significantly improve the OIG website to create a user-friendly and informative
           tool for communicating about OIG activities and results.

9. Develop and conduct “OIG 101” training sessions. OIG and Amtrak staff, some
   members of Amtrak senior management, and the Board of Directors could all benefit
   from a practical presentation that explains what it means to interact with an independent
   OIG, including examples of “good” and “bad” interactions.




                                          20
Benchmark Area #3:
WORK PLANNING AND PRIORITIZATION


Future State

Amtrak OIG has a work planning and prioritization process that engages stakeholders in
identifying and reducing areas of perceived risk, and fully assesses the nature, scope and inherent
risks of Amtrak programs and operations. This process identifies high value work that provides
strategic value to Amtrak and enables OIG to more effectively allocate its resources to this work.


Observations and Discussion

As five senior OIG officials reported, OIG leadership recognizes that it must perform higher
value work that has strategic impact to Amtrak, and that it needs a process that objectively
identifies and prioritizes Amtrak programs as potential subjects of audit, investigation, inspection
or evaluation. A major step in this direction was the development of the OIG strategic plan in
early 2010, which has been well received by OIG leadership and staff. Eighty-one percent of
staff who responded to the survey said they had a good understanding of the plan and the same
percentage supported its goals. Among other steps recently undertaken, the OIG has:

   •   Begun to transition internal control compliance functions to Amtrak.
   •   Required all audit and evaluation employees, regardless of tenure, to take “Audit 101,”
       evidence, and report writing classes to ensure that they have baseline knowledge of
       industry standard audit procedures.
   •   Begun to educate investigators about what a “big picture” strategic investigation would
       resemble and what skill sets it would require; the AIG also has plans to conduct fraud
       awareness training for Amtrak employees.
   •   Hired a seasoned consultant with IG experience to document standard quality work
       processes; this work should be completed in September 2010.

The benchmarked OIGs noted the need to scan the external environment for potential issues to
ensure that OIG priorities appropriately consider agency challenges and needs, and to help build
trusted relationships with stakeholders. It is noteworthy that the Amtrak IG has held regular
meetings with the Board Chairman and leadership, met monthly with the President and CEO, and
moved to improve relationships and increase transparency with Congress. He has committed to
engaging in continuous dialogue with these stakeholders throughout the year, thus providing the
opportunity to identify emerging issues and potential risks before they become problematic.

Amtrak OIG is to be commended for developing a multi-year strategic plan, though it was noted
that the development process could be improved. The plan was developed primarily by middle
managers, and a number of staff thought that it would be helpful for senior leaders to provide
strategic direction and facilitate communication among different functional units as the plan is
updated. Several interviewees identified the need to better educate OIG staff about what the plan



                                                21
means to employees. Benchmarked OIGs noted the importance of updating the plan annually to
reflect year-to-year operating reality.

Amtrak OIG leadership clearly recognizes the value of developing an annual work plan that
engages all OIG staff—particularly senior managers—in the identification and prioritization of
work. Nevertheless, limited staff skill sets and capacity impede leadership’s ability to broadly
engage OIG staff at this time. Specific constraints include the following:

   •   Many OIG staff are consumed by triaging and closing out work initiated under the prior
       IG’s tenure and processes (much of which should not have been initiated), and do not
       currently have the capacity to take on additional work.
   •   Compliance functions must be fully transitioned to Amtrak in order to free up staff
       resources to conduct higher value work.
   •   Many staff do not have experience with impactful, strategically-focused OIG work, so
       would have difficulty effectively generating ideas for consideration.
   •   Many staff are nearing eligibility for retirement and some may not welcome changing the
       type or focus of work that historically has been performed.

Many OIG and stakeholder interviewees said that not only do many OIG staff not have the skill
set to identify high value OIG work, but also, as discussed in greater depth later in the report,
that many staff do not have the skill set necessary to conduct the resulting work. Many auditors
lack a working knowledge of Yellow Book standards, and many evaluators are knowledgeable in
their subject matter area but also lack a solid understanding of Yellow Book standards used by
the IG community.

Further, Amtrak itself may not thoroughly understand its risks. Board members and leadership
indicate that they are familiar with areas of operational risk, but two benchmarked OIGs
encourage their agencies to address risk awareness more comprehensively than is done at
Amtrak. Specifically, these OIGs encourage agencies to undertake a comprehensive enterprise
risk management process, which the IG considers with its identified risks as part of the annual
planning process.

Finally, most benchmarked OIGs said they use specific risk factors to rank and prioritize
suggestions generated by an external scan. Examples of criteria include dollar value, prior audit
coverage, external interest, public sensitivity, and IG discretion/judgment. The Amtrak IG
recognizes the value of having established ranking criteria to increase transparency about the
types of work performed, and plans to do so in the future.




                                               22
Recommendations


Quick Wins:


   10. Create a means to identify and close out all low-priority OIG work by the end of this
       fiscal year. One approach would be to require all staff to submit to their AIG an
       inventory of all open projects under their purview, including the date the project was
       initiated, the current status, the staff assigned to the project and estimated staff time
       required to complete the work, and the projected completion date. If the projected
       completion date is after October 1, 2010, the project lead should provide a written
       justification as to why the work should not be terminated.
   11. Discuss areas of perceived risk with the Amtrak Board and management, with the goal of
       identifying issues to be addressed in the annual OIG work plan for the coming fiscal year.
   12. Hold an extended (potentially offsite) meeting of senior staff from headquarters and field
       offices, AIGs, and senior OIG leadership to discuss and finalize the upcoming year’s
       priorities.
   13. Institute a twice-yearly meeting among all AIGs and Amtrak senior team members to
       discuss any areas of concern regarding OIG/Amtrak interaction, as well as perceived or
       emerging risks to the corporation.

Longer Term Recommendations:

   14. Develop a comprehensive work prioritization plan, including interim operational
       milestones and a communications plan, that will launch in Fall 2011. The plan should
       result from a process that is owned by the senior management team, includes OIG staff
       and stakeholder input, and applies risk factors and criteria to prioritize work. It will also
       be important to develop and implement a communications strategy for the work plan that
       is undertaken in fall 2010. Staff should understand that the formal work prioritization
       process will be launched in fall 2011, but interim steps are being undertaken to ensure
       continued progress. Ultimately, the annual work plan must be clearly aligned with the
       OIG’s Strategic Plan and Human Capital Plan.




                                                23
Benchmark Area #4:
QUALITY AND TIMELY WORK PROCESSES


Future State

Amtrak OIG consistently follows commonly accepted work practices and standards both within
functional areas and across locations. Work adheres to established quality standards and, as
appropriate, is accessible and transparent to OIG staff.



Observations and Discussion

All OIG staff interviewed recognized that consistent, clear work processes are key to every well
functioning organization; many indentified the need for their work to adhere to established
guidance, such as the Yellow Book, which all benchmarked OIGs follow. They also agreed that
it would helpful to have clear expectations about what audits, evaluations and investigations to
conduct and how to conduct them.

Survey and interview data indicate that the lack of documented and well understood processes,
tools and deadlines has resulted in misaligned resources, inconsistent report formats and
inadequate accountability. Some interviewees, both among staff and stakeholders, noted a
concern about the review process—including the number, levels and timeframes of reviews—
and the lack of standard formats or quality control for different types of work. They also noted
the lack of standards for report writing, and said reports often are outdated by the time the review
process is complete.

Specific shortcomings that were identified include the following:
   •   Audits have not been conducted in accordance with Yellow Book standards or in a timely
       manner, with established deadlines and quality control for fact checking and independent
       referencing. Although OIG recently passed a peer review, deficiencies were found in its
       policies and procedures across the office, particularly with regard to adherence to Yellow
       Book standards. Actions are underway to correct these deficiencies and new guidance is
       scheduled for implementation by September 2010, with training to occur this Fall.
   •   The majority of Investigators do not currently meet the federal standards that would
       permit them to carry firearms, and many may not even be eligible to attend required
       training standards due to physical or other limitations. Investigators have not consistently
       followed investigative standards; numerous interviewees cited examples in which
       Investigators conducted interviews without appropriate notice to Amtrak employees, or
       did not document their requests for information from employees. One stakeholder
       familiar with the OIG Investigative unit said he does not believe that the Investigative
       Unit would be able to pass an independent peer review, and believes that the work
       practices of this unit undermines the credibility of the entire Amtrak OIG.




                                                24
   •   The Inspections and Evaluation group has produced some reports that were valued by
       Amtrak, but they did not, and were not required to, prepare these products in accordance
       with Yellow Book standards.
   •   OIG has not been consistently tracking the status of its recommendations. Congress is
       increasingly interested in knowing about recommendations not accepted or implemented
       by management, and OIG has recently begun to track these data. Staff and stakeholders
       are hopeful that the new Amtrak audit liaison will take on the task of reviewing the status
       of findings and recommendations, particularly once work under the new IG’s leadership
       and guidelines is fully initiated.
   •   OIG staff do not consistently use such electronic tools as TeamMate for auditors and
       Amtrak Investigations Management System (AIMS) for investigators; there is
       insufficient guidance, policy or training for the use of these systems. Until staff
       consistently input information into the systems, they cannot be used to document and
       track ongoing work. Among staff surveyed, 37 percent believe that guidance and training
       provided for TeamMate is very poor or poor, while 34 percent felt the same about AIMS
       guidance and training. All staff should use these systems to support progress monitoring,
       accountability and transparency.
   •   Field offices are not well integrated into HQ operations, and may not represent the most
       efficient or appropriate location of where work needs to be performed; many field offices
       also do not have a critical mass of employees nor appropriate supervisory relationships.

Staff, management and stakeholders identified the need for more structured work processes and
quality control in nearly every interview. Twenty-nine percent of staff respondents asked for
technical guidance and standardized, transparent work processes. Establishing and enforcing
adherence to common practices and standards will also support increased accountability.  

Most OIG interviewees said expectations about standard processes have begun to be
communicated. These include statements made at the March 2010 all-staff meeting, the
mandated Audit 101 training, and informal communications. The next step is to provide clear
guidance about what these expectations mean for day-to-day operations via training scheduled
for this Fall. Amtrak OIG is currently doing what all benchmarked OIGs have done: improve
the culture through written guidance and training, clear and direct messages, ongoing
communication about expectations and holding individuals and managers accountable for
following standard procedures.

Amtrak OIG has hired an experienced OIG consultant to document its Audit processes, the result
of which is due for completion in September 2010. Developing guidance is critical to unifying
an organization and forming a common groundwork for change. One benchmarked OIG
undertook a major revision of its standard operating procedures during a time of similar
organizational change. It tasked each field office with writing a chapter of the manual that
covered a specific task or topic. An AIG then compiled the chapters and did a master edit before
signing off and distributing the guidance. Engaging all staff engendered support for and
understanding of the procedures across the OIG.




                                               25
Senior staff interviewees offered a number of constructive ideas about the changes needed and
appeared receptive to the changes already undertaken. Survey respondents also provided
suggestions. Twenty-one percent of survey respondents identified the need for guidance
regarding report preparation process and style, as well as for training on TeamMate, AIMS, and
overall standards and guidelines. Overall, staff survey respondents had positive perceptions
about staff willingness to adopt changes and learn new processes. More than 80 percent agreed
or strongly agreed that staff are willing to learn how to use these new tools, which will be an
important factor in adopting OIG-wide practices and automation. Only when such requirements
are instituted will it be clear whether such willingness – and ability – truly exists.

The recently created audit liaison position could be utilized to facilitate retrieval of information
for audits, in addition to tracking implementation of recommendations. Benchmarked OIGs also
reported increased use of interim work reports to ensure that the reports are on the right track,
and ensure that agency and congressional staff receive information in a timely manner. For
example, several OIGs issue interim technical advisory reports, or share preliminary findings
with stakeholders if they can facilitate immediate improvements to a program.



Recommendations

Quick Wins:

   15. Ensure that productive, engaging training on the newly developed policies and
       procedures for Audit and I&E occurs this fall.
   16. Require and provide basic written instruction to all OIG employees to utilize the
       appropriate electronic project management system, so that project activities can be
       documented and project progress can be assessed.
   17. After training is completed, identify a number of audits or other work that can be
       completed within a relatively short time period (e.g., 120 days). This work can provide
       indicators of whether employees understand and are adhering to the new policies; it will
       also provide the benefit of being able to provide finished work products to share with
       Amtrak, the Hill and OIG staff in the relatively near term.
   18. Find any and all opportunities to celebrate products of the improved work processes and
       training. Recognize strong employees and report success. Provide examples of “good
       reports” and models of behavior going forward.
   19. For Investigators, establish a deadline by which they must meet Attorney General
       Guidelines to carry firearms and carry out law enforcement actions, and create a plan of
       action for those who are unable to meet the required standards

Longer Term Recommendations:

   20. Continue to place priority on developing internal policy and guidance, and pay special
       attention to defining how Yellow Book standards will apply to audits and evaluations.


                                                26
   Many of the basic principles apply to both types of work. Efforts should also continue to
   codify internal guidance on investigative practices. This work deserves priority attention,
   as the positive improvement of the office depends heavily upon having these solid
   foundations of policy and guidance.

21. Ensure compliance with internal policy and guidance once they are developed. Specific
    approaches include the following:
       •   Make the guidance and tools easily accessible. Devote resources to host and
           maintain policies and procedures on an OIG Intranet site, with access open to all
           OIG staff for easy reference.
       •   Require that all staff members use TeamMate and AIMS in accordance with the
           underlying policy’s intended goals. Centrally manage customization and training
           to ensure a unified approach.
       •   Develop and execute a training plan for staff in basic office processes and
           practices. Conduct the training shortly after finalizing the guidance to expedite
           the transition to a consistent work approach.
       •   Monitor application of standards and hold managers and staff accountable for
           following the policies and procedures on a regular basis, as well as in annual
           performance reviews. Employ a routine, “dashboard-type” progress report
           against work plans, and a consistent quality assurance review process to reinforce
           adherence to standards in methods and final products.

22. Consider whether field offices should be relocated, eliminated or staffed differently, in
    light of new OIG work flows, supervisory relationships, and project staffing. Ensure that
    each OIG field office can operate cost-effectively: that it has adequate work to perform;
    its location is consistent with the work that OIG needs to be performed; it has a critical
    mass of employees to perform the necessary work; and it has a supervisor who has an
    appropriate number of employees to manage, as well as the experience and skill set to
    provide employees with the necessary guidance and supervision. In some cases, field
    offices may need to be consolidated and/or supervisors may have to be hired.




                                           27
Benchmark Area #5:
INDEPENDENCE


Future State

Amtrak OIG has an independent and transparent relationship with its stakeholders, in accordance
with the letter and spirit of the Inspector General Act and applicable industry standards. Each
stakeholder group has a clear understanding and a practical, applied definition of what it means
to have transparent interactions with an independent OIG.


Observations and Discussion

Every interviewee––staff and stakeholder alike––supported OIG’s independence and recognized
that constructive, transparent stakeholder relationships are crucial to maintaining it. All
respondents believed that Amtrak OIG has made great strides in establishing independence and
improving relationships since the appointment of the new IG, whom they recognized must have
adequate in-house capability to ensure operational independence. The Board and Amtrak
management echoed this sentiment, commending OIG leadership’s openness, transparency and
heightened presence at Board meetings. Board members understand that they do not have the
authority to direct OIG’s activities.

Recent developments further demonstrate a strengthened level of OIG independence. First, the
Consolidated Appropriations Act of 2010 authorized a direct appropriation to OIG to ensure that
it is no longer dependent on Amtrak for funding and to increase its perceived and actual
independence. Second, Amtrak and OIG cooperatively developed new relationship policies and
procedures to ensure productive interactions. Interviewees cited this document as a great start
and noted the positive spirit with which it was created. As required by Congress, the CIGIE
Vice Chairman conducted an independent evaluation that verified that the policies comport with
the letter and spirit of the Inspector General Act. Lastly, OIG employees, even those with deep
railroad knowledge, appear to understand that they are no longer able to participate in Amtrak
management decisions; despite this apparent understanding, however, interviewees still cite
instances in which OIG staff continue to participate in Amtrak management decisions, so robust
training is needed to educate OIG staff about what is and is not appropriate.

Notwithstanding this renewed sense of independence, OIG leadership and stakeholders are
concerned that Amtrak does not understand what independence truly entails with regard to
specific authorities and responsibilities, such as those pertaining to human resource decisions and
access to company records. Most stakeholder interviewees stressed the need to educate Amtrak
staff about what an independent high-performing OIG does and how it should interact with them.
Even Board members, most of whom have not had other experience interacting with an IG,
would benefit from a clearer understanding of what an “independent yet transparent” relationship
entails.




                                                28
It was noted in interviews that Amtrak management in the past has sought OIG’s “blessing” prior
to implementing key management decisions. Also, OIG conducted routine internal control
functions that Amtrak staff should conduct before paying bills.

Given the historical culture of limited communication and entrenched ways of doing things, it
will take time for both OIG and Amtrak staff to embrace best practice concepts of independence
and transparency, but it appears that everyone recognizes that it needs to happen


Recommendations

Quick Wins:

   23. Continue to have conversations with Amtrak management and the Board about its role
       and resolve issues as they arise (e.g., Amtrak salary guidelines for OIG employees).
   24. Request an informal CIGIE consultative review to confirm that the policies and
       procedures agreed to by management and the IG are being consistently implemented.
       Doing so could help to ensure that OIG is on track to pass the follow-up review next year.

Longer Term Recommendations:

   25. Use the recently developed relationship policy to educate all stakeholders about the roles
       and responsibilities of OIG and Amtrak. In addition, OIG should develop a practical,
       applied definition of “independent yet transparent”.

   26. Work with Amtrak management and Board to eliminate Amtrak-imposed restrictions on
       OIG’s use of funds, hiring actions or other resources that may adversely affect OIG’s
       ability to fulfill its responsibilities. For example, the Panel recommends that OIG’s
       relationship with Amtrak Human Resources be reviewed and redefined so that OIG
       recruitment is not stalled or inhibited.




                                               29
Benchmark Area #6:
POLICY MANAGEMENT AND UPDATES


Future State

Amtrak OIG maintains and applies current, accurate and consistent policy across the office; has a
process to monitor changes in the external environment that affect its work practices and a
mechanism to incorporate those changes into internal policy; and makes all guidance easily
accessible to staff.


Observations and Discussion

There is widespread recognition within Amtrak OIG of the need for standardized, quality
policies and guidance, as well as greater structure and consistency in process. In response, OIG
leadership hired a well-respected consultant to lead the development of high quality, standard
Audit policies which are scheduled to be finalized in September 2010. Recognizing the need for
heightened focus on policy, OIG also established a group last year to make policy development
and enforcement an organizational priority.

Many interviewees reported that the IG and senior leadership have begun to communicate
expectations around the role and value of standard policies. In benchmarked OIGs, draft policy
is distributed for comment and refinement among managers in each functional area, adding
contextual insight about how the policy relates to specific practices. For example, one OIG
maintains a top-down/bottom-up process for policy development and updates. An AIG drafts the
update or potential change to a standard work process, distributes it to field offices for review,
collects the comments, and drafts the final update for final review approval. The policy is then
distributed formally to all affected personnel with a signed instruction from the AIG to update
the existing policy manual. However, lack of experience among Amtrak OIG managers and staff
in standard IG practices makes it difficult to engage them in the process at this time.

Some interviewees mentioned that there is no process to actively monitor the external
environment for potential policy updates, a mechanism that high functioning OIGs have in place.
There, responsibility for monitoring and updating relevant policy lies with the functional areas
and the IG maintains ultimate signature authority for setting policy. Functional leaders develop
their own draft internal guidance, shepherd the review and approval process, and are responsible
for scanning the external environment for updates to official guidance.

The function, roles, and responsibilities of the M&P group is unclear, some interviewees and
survey respondents said. They noted a lack of communication and product coming from M&P,
and raised concern that staff skills within the group may not be adequate. Benchmarking
research indicates that while many OIGs maintain a policy group or administration function,
these units generally serve as a policy repository and facilitator of process. AIGs or other senior
leaders are responsible for issuing policy updates in their respective areas, once the IG has signed
off. Content development usually resides with functional experts.


                                                30
Amtrak OIG has not historically made its policies readily accessible to all staff via the secure
subnet. In benchmarked OIGs, policy updates are formally communicated and made available
on an Intranet site open to all OIG employees. Such practice supports consistency of work
practices, adherence to common standards, transparency and effective communication.

Finally, some staff appear to be resistant to policy changes. There is a risk that the OIG’s
historical culture of limited communication may impede the collaborative and constructive
dialogue critical to policy development and implementation.


Recommendations

Note that many of the issues mentioned in this section align with observations noted under
“Quality and Timely Work Processes” section.

Quick Wins:

   27. Review recently developed policies at all-staff meetings, monthly AIG unit meetings, and
       other internal forums. Recently developed policies have been posted on the secure
       subnet, but not yet read or fully understood by most staff.
   28. Develop tools and training that demonstrate the practical application of the policies; for
       example, an Agent Handbook for Investigators or step-by-step examples of well-executed
       audits.
   29. Define the roles and responsibilities of the M&P group.

Longer Term Recommendations:

   30. Clarify the roles of the functional groups (audit, investigations, and evaluation) and the
       M&P and Legal groups in the policy development and update process. In particular,
       there is a need to:
           •   More clearly articulate the roles and responsibilities of the M&P group, and
               ensure that the jobs and skills of staff within the group are aligned with the
               group’s responsibilities.
           •   Define the working relationship and work flow between the functional leaders and
               M&P and Legal.
           •   Engage managers and staff leaders in reviews of draft policies.




                                                31
Benchmark Area #7:
HUMAN CAPITAL MANAGEMENT


Future State

Amtrak OIG attracts and retains high-performing employees; has consistent job titles and job
descriptions; and has in place training plans and performance management plans that link
individual performance to OIG objectives.

Observations and Discussion

Virtually all interviews with OIG senior staff, Amtrak management and stakeholders emphasized
the belief that the current skill set of many OIG employees do not reflect those required of a
high-performing OIG. Two solutions identified were to hire new/additional managers with
experience in the OIG community, and to immediately begin to develop current OIG employees
so that they can more effectively carry out the responsibilities of the OIG. Interviewees
consistently noted that the new IG’s greatest challenge would be the development of staff.

This section contains observations in the following areas: training/technical skills development,
recruitment, leadership development, employee performance management and recognition,
consistent job descriptions and titles, mentoring and supervisor-employee relations,
organizational responsibilities and rotation assignments, and cross-functional teams. This
section is robust because the organizational assessment revealed that human capital management
is one of the Amtrak OIG’s most pressing areas of concern: the current skill sets of many Amtrak
OIG employees are not adequate to perform the high-value, strategic work that the OIG offices
needs to initiate to satisfy the needs of its stakeholders and there are not enough managers with
strong supervisory skills and subject-matter expertise to train staff to do this work.

Training/Technical Skills Development

The leadership team and a majority of stakeholders noted a significant deficiency in essential
skills critical to performing standard OIG job functions. There is deep concern that the OIG
work does not reflect the high quality standards for which the OIG should be accountable.
Interviewees, both OIG and stakeholders, noted that an organization-wide skill set inventory is
needed to determine what specific skills staff do and do not possess, and that a robust training
and recruiting program needs to be developed to address the skill deficits.

Senior team interviewees noted that the Amtrak OIG is developing and delivering “Audit 101,”
evidence, and report writing training to establish consistent baseline skills in the Audit and I&E
units. OIG leadership and external stakeholders stressed the value of basic training for all staff
to address current skill deficiencies, which include the application of Generally Accepted
Government Accounting Standards (GAGAS), identification of evidence and findings,
conducting surveys, documentation, and report writing. While these are the rudimentary
components of effective OIG audit work, many employees are not proficient because these skills
were not emphasized in the past.


                                               32
In addition to lacking a baseline of knowledge on audit procedures, interviewees noted that staff
could also benefit from training in each functional area to ensure consistent baseline knowledge
throughout the organization, as well as training on skill sets required to be successful within the
unique Amtrak OIG environment. Independent contractors are currently working on this
initiative, and positive results from this training will be a welcome enhancement to the
organization and to employees.

It was noted that a number of the Investigative staff are likely ineligible for essential Criminal
Investigative Training Program at the Federal Law Enforcement Training Center. The physical
and health limitations of many of the Investigative staff are likely to prevent them from
successfully completing the training. Without this training, they cannot obtain law enforcement
authority.

Recruitment

Many OIG leadership and stakeholder interviewees noted that, in addition to offering training to
the current OIG staff, the OIG would likely need to recruit experienced staff from the OIG
community to fill new supervisory positions in each of the units, in order to implement and
model industry standard processes, provide on-the-job training to the recently trained staff, and
to add needed supervisory skills.

Nearly half of OIG interviewees saw salary ranges as a prohibitive factor when recruiting
experienced staff, however. OIG’s recruitment initiative was, until recently, impeded by
Amtrak’s salary guidelines which prevented OIG from offering compensation packages
commensurate with the experience and training required. Amtrak OIG was unable to establish
salaries using comparisons that were appropriate for OIG (i.e., other OIGs, GAO, accounting and
auditing firms), which has made it difficult to attract highly-qualified candidates. Benchmarked
OIGs noted that it is critical to attract and appropriately pay high-performing staff. With this
issue now being addressed, this problem should be somewhat alleviated moving forward.

Several interviewees and survey data also suggest that the Amtrak OIG many have a significant
impending attrition issue, and that recruitment and succession planning have not received the
attention they deserve. Given a large number of retirement-eligible employees, an aggressive
and competitive recruitment plan should be developed in anticipation of probable vacancies.
Nearly one third of survey respondents identified “pending retirements and succession planning”
as one of the biggest challenges for OIG’s future, yet several interviewees said no management
succession plan is in place. OIG has identified and prioritized key vacant positions in an effort to
focus recruitment activities on immediate needs.

Once experienced staff are placed into supervisory and other key positions, many benchmarked
OIGs noted that they have found it helpful to recruit younger employees into more junior roles.
However, there is a belief among senior OIG staff that the Amtrak OIG has not attracted junior
staff because of the work and approach have not been consistent with industry standards, the
limited availability of development opportunities, and the fact that its retirement plan differs
from the standard government retirement plan (e.g., it requires longer tenure for vesting). As a



                                                33
result, OIG historically has recruited primarily from among Amtrak staff, a practice that creates
risks regarding bias and independence, and limits access to new ideas and skills from the broader
IG community.

All benchmarked OIGs note that it is important that the OIG clearly communicate expectations
to all new hires, regardless of whether they are experienced supervisors or junior staff. One
OIG conducts an orientation session every six months for new employees to ensure clear
understanding of how the organization conducts its work. Another holds comprehensive
orientation sessions for new hires, with presentations and instructions on writing OIG reports and
other documents. IGs and their AIGs also meet individually with all new employees.

Leadership Development

As technical skills improve and new hires are brought in, it is critical that the OIG has strong
leadership at all levels to model appropriate work processes, provide on-the-job training, and
hold staff accountable. Interviewees noted that recent attempts to define and clarify roles have
been stalled due to a lack of strong leadership and supervisory skills within the units. Senior
leadership interviews indicate that many managers do not possess management skills, do not
know how to evaluate and communicate performance requirements, and do not know how to
mentor staff.
Senior leadership, as well as other stakeholders, reported that there is no documented process by
which supervisors review completed work products and provide feedback on the strengths and
weaknesses. There are currently very few managers who can guide junior staff through an
analytical assessment of the process or report. This means that errors tend to be repeated, and is
a missed opportunity for improvement. It also puts the OIG at risk, as unidentified and repeated
errors in accuracy and process can lead to considerable skepticism regarding the Amtrak OIG’s
capabilities and could threaten its long-term viability.

All of the benchmarked OIGs credited management and leadership skills at every level as a key
element driving organizational accomplishment. While there were a variety of processes and
mechanisms utilized, the common thread was willingness and initiative to communicate with
staff the mission and goals of the organization, the strategy for achieving those goals, and how
individual contributions connect to organizational success. Without engaged managers and
leaders to drive these conversations, OIG currently will not have the necessary champions to
make the transformation efforts now underway successful.

In many ways, lack of leadership is a deep-seated cultural issue that benchmarked OIGs suggest
can be improved by standardizing and communicating expectations, having an effective
performance evaluation and talent management processes, tracking and measuring training
initiative impacts, and addressing organizational recruiting issues.

Employee Performance Management and Recognition

Historically, the Amtrak OIG’s individual employee evaluation criteria have not been clearly tied
to organizational or individual performance, and they lack a consistent performance rating
scheme. Some staff said the lack of differentiation in the system essentially creates a pass/fail


                                               34
system, and leaves high-performing employees frustrated. There is suspicion among employees
that some senior managers rate all staff members “highly competent” because any lower rating is
perceived negatively. Additionally, many managers are not conducting interactive meetings with
staff members to discuss their appraisals and work cooperatively to improve on deficiencies.
This is a critical missed opportunity for employee development. The development of employee-
specific development plans was also identified by several interviewees as a much needed
improvement to the current performance management system.

With regard to compensation, guidelines established by Amtrak have in the past impeded OIG’s
ability to reward performance monetarily. One benchmarked OIG reports tremendous value in
rewarding high-quality work with monetary bonuses and extra paid time off. While the
monetary rewards are relatively small, the impact is often immense. Similarly, there is no
tradition of recognizing exceptional work or leadership through recognition ceremonies or other
means at Amtrak OIG. Public recognition ceremonies are widely referenced by benchmarked
OIG as having tremendous value for encouraging improvement and doing one’s best work. One
OIG typically holds awards ceremonies in the main building, and provides a photo opportunity
with the department’s top political leader whenever possible.

Consistent Job Descriptions and Titles

The Amtrak OIG has traditionally used what some have called a “hodgepodge” of job titles in
the various units. These titles do not always reflect the type of work that is being done, and are
not consistent across functional units. This situation has led to unclear expectations and
disparate job responsibilities. Two OIG interviewees noted that inconsistencies in job titles
across units led to difficulty in determining organizational responsibilities. Another interviewee
noted that current job descriptions to do not reflect the skill sets required for the position. It is
also difficult to create an equitable performance appraisal process without a clear definition and
understanding of minimum competency levels for each position.

It will be important to review and institute consistent job titles, supervisory levels, and expected
range for the number of employees to be supervised throughout the organization. These basic
components of each supervisory job description can then be customized to address function-
specific skills sets, such as the unique requirements of Investigators or Auditors.

The lack of sufficient numbers of qualified human capital management support staff has
hindered progress on this front, and has left the organization without clarity of job functions and
responsibilities. Having engaged outside assistance for this purpose, we recognize that it is an
area that OIG is appropriately focused on.

Organizational Responsibilities and Rotation Assignments

Amtrak OIG’s stove-piped insular culture has led to “hoarding” top performers. Currently, very
few “stars” have been identified, causing further resistance to “give up” key talent. This means
that high-potential, but under-challenged, staff are likely to stagnate in their offices with little
leadership direction and no performance plan. Leadership team members have expressed interest




                                                 35
in establishing a system of rotational assignments to build skills across functional areas, and
begin to identify staff with high potential.

Cross-Functional Teams

As the Amtrak OIG moves towards the desired future state, it has recognized the value of cross-
functional teams and recently established them to address specific issues (e.g., health care).
These teams are common among OIGs with oversight responsibility for funds issued under the
American Recovery and Reinvestment Act, as this effort requires prevention activities during the
early phase and recovery activities once funds are awarded through contracts and grants. These
OIGs employ a mix of auditors, evaluators, investigators and legal counsel who work together to
first raise awareness and educate about fraud prevention, and later conduct audits. Larger OIGs
have established standing cross-functional divisions that respond quickly to high priority issues;
smaller ones have created teams only to address specific issues. These varied approaches have
proved successful in many ways, including producing high-quality end products, enhancing
communication across functional units, and improving working relationships among staff.
However, benchmarking results indicate no best way to employ cross-functional teams.

Despite the potential value of cross-functional teams, recent efforts within Amtrak OIG have not
met with great success. Survey results indicate that few staff members think they have been
satisfactory (20 percent) or good/very good (12 percent). More than one-third rates their use as
poor or very poor. Senior leadership concurs that these efforts have not been successful. Given
the history of stove-piped operations, multiple internal communication challenges, internal
competitiveness among managers, lack of well-understood and consistent work practices, and a
culture of non-transparency, OIG does not have a solid foundation for such teams. It does not
appear that the Amtrak OIG should actively pursue the development of cross-functional
engagements until larger issues (such as baseline training, job descriptions, and supervisory
relationships) are addressed.


Recommendations

Quick Wins:
   31. Incorporate the development of a skills inventory into upcoming training delivery. Take
       advantage of upcoming opportunities to determine what employees know (and don’t
       know), as training is launched.
   32. Streamline the number of job titles, make job titles consistent across functional units, and
       develop standardized position descriptions that accurately reflect job requirements. For
       example, in Investigations, document and inform staff of the requisite training associated
       with law enforcement positions.
   33. As new training initiatives are implemented, establish a tracking system to monitor
       employee needs and completion of coursework.
   34. Continue to engage those employees who have participated in the benchmarked OIG
       interviews and give them ownership of process improvement ideas that have resulted
       from those interviews.


                                               36
Longer Term Recommendations:

   35. Conduct a comprehensive human capital needs assessment and develop a human capital
       plan. Areas of focus should include the following:
              • Competitive market salary guidelines;
              • Recruitment strategies;
              • Skills inventory development;
              • Position description development;
              • Performance management;
              • Recognition and reward programs;
              • Leadership training and development; and
              • Retention strategies
              • Succession planning


   36. Establish processes for creating cross-functional teams and ultimately build them into its
       work planning process. This should take place only after improvements are made to
       human capital management, internal communication, work prioritization processes, and
       as working relationships become more effective within the office. As individual projects
       are planned and initiated, OIG should consider whether a cross-functional approach is
       warranted on a case-by-case basis.




                                              37
Benchmark Area #8:
PERFORMANCE MEASURES


Future State

Amtrak OIG has performance metrics that reflect the requirements of the Inspector General Act,
meet the expectations of GAO and Congress, reflect the value of OIG work to Amtrak; and align
with OIG strategic goals. These metrics are integrated into OIG’s operating and performance
management systems.


Observations and Discussion

Amtrak leadership and benchmarked IGs indicated that effective performance measurement is an
area that deserves continued attention and improvement. The latter recognize the importance of
quantitative measures, yet note that some of the most meaningful measures are qualitative or
subjective, such as agency views about how OIG added value to the agency or agency feedback
on the quality of OIG recommendations. It can, however, be difficult to define and establish
metrics for such measures.

Amtrak OIG’s Strategic Plan 2010-2014 has six goals, desired outcomes for each goal, and many
(indeed, too many) quantifiable and non-quantifiable measures. Particularly noteworthy is the
deliberate link between OIG and Amtrak performance. For example, goals 1-5 list more than 50
outcomes that reflect potential improvements and impact on Amtrak operations. This list could
effectively serve as a starting point for a conversation with the Amtrak Board and management
about how OIG can most effectively contribute to organization-wide improvement. Goal 6
includes 23 measures classified as outputs and 27 measures classified as outcome measures.
Though some are not directly measurable (“performance reviews are honest and effective”) and
others misclassified (“OIG employees are consistently high performers” is not an outcome), the
list provides an excellent starting point for identifying the most critical measures related to
internal OIG operations.

OIG leaders and staff recognize the importance of establishing performance metrics that reflect
the value of their work. The majority interviewed suggested that OIG consider traditional
quantitative measures (e.g. potential dollar savings from audit recommendations), additional
output measures reflecting work done to prevent or avoid waste/fraud/abuse (e.g. number of
Amtrak staff trained in fraud detection), and qualitative measures of impact (e.g. changes in
stakeholder opinion surveys regarding the effectiveness of OIG). These suggestions may not be
directly measurable (except through opinion surveys), but they indicate receptivity to new ways
of thinking about OIG impact and how to measure it.

Consistent with benchmarked organizations, OIG leadership and staff also recognize the need to
consider Amtrak perspectives as part of performance measurement. Several survey respondents
suggested that OIG solicit stakeholder feedback to assess the process and quality of OIG
recommendations.


                                              38
Notably absent is a system to track standard OIG performance measures and regularly monitor
key measures of progress toward strategic plan goals. The plan sets the stage for moving OIG
forward and the recommendations in this report identify managerial and operational
improvements required to drive change. It will take time to design and effectively implement,
but a performance measurement system is critical not only to determine whether goals are
accomplished but also to support expectations for accountability and transparency.

It should be noted that, while everyone recognizes the need and value of performance measures,
the OIG has a culture of limited accountability, at both the organizational and employee level.
The most powerful organizational performance measures are usually incorporated into individual
performance management systems. However, since OIG staff are not accustomed to having
deadlines, meeting quality standards, and being held accountable for delivery of high-quality,
timely work, it will take time to develop and implement accountability at the individual or
organizational level. Performance measures need to be established and tracked, yet some
employees may lack the motivation or skills to work up to the new measurements.


Recommendations

Quick Wins:

   37. Establish a process to track, on at least a quarterly basis, the metrics that all OIGs must
       report.
   38. Start the process of engaging Board members and Amtrak leadership in a discussion
       about how to measure value of OIG work in a meaningful way; this can also serve to
       educate them about the type of work that the office will be doing and how interactions
       should occur.

Longer Term Recommendations:

   39. Engage the Amtrak Board and senior leadership in an ongoing dialogue about how the
       OIG can effectively measure the value and impact of its work, and cooperatively identify
       qualitative and quantitative performance measures. These measures should be used along
       with standard OIG measures to capture the value of the work performed.

   40. Identify the most critical managerial and operational performance objectives and track
       their achievement using key performance measures. This should include development
       and implementation of a performance tracking system for key measures related to
       accomplishment of OIG’s goals, including outcome and output measures. These
       measures should be monitored and discussed by senior management on a regular basis,
       and used as a tool for setting work priorities and making resource allocation decisions.
       OIG also should consider defining measures that support its change initiative.

   41. Incorporate key organizational performance measures into its individual performance
       management system.


                                               39
This Page Left Intentionally Blank




               40
                                   A PATH FORWARD

The National Academy of Public Administration appreciates the opportunity to work with the
leadership of Amtrak OIG on this important effort to reinvigorate and modernize its operations.
Given the progress made to date, as well as OIG’s clear desire to make further progress and build
support among the organization’s stakeholders and peer community, the Panel believes that OIG
can and will succeed in this endeavor.

The Panel has made 41 recommendations for OIG leadership, which are all listed throughout the
report and below. In so doing, we recognize that all these recommendations cannot all be
undertaken simultaneously. Progress in some areas will depend on other changes, while some
changes are more time critical. The Project Team looks forward to discussing these
recommendations in greater depth with OIG leadership, and to developing roadmaps for the
priority recommendations as part of Phase Two of the project.

Internal Communications

Quick Wins:
   1. Institute regular top-down communication practices, including a monthly email to all
      staff that highlights on-going work, employee achievements, and OIG successes.
   2. Conduct regularly scheduled (at least monthly) AIG unit meetings to discuss new work
      and progress on current work, emerging issues, current events, etc. The IG and/or
      Deputy IG should attend these meetings on a rotating basis. In addition, the IG/Deputy
      should attend meetings at which the AIG and his/her staff will be making critical go/no-
      go decisions regarding ongoing work, so that staff recognizes such milestones are
      important and that leadership is engaged in the newly developed Audit processes.
   3. Hold at least two all-staff meetings per year that include an opportunity for staff to make
      presentations, ask questions of leadership, and recognize high-performing employees.
   4. Develop mechanisms to allow OIG staff to give feedback to management.

Longer Term Recommendations:
   5. Make more effective use of technology and face-to-face meetings to strengthen internal
      communications and build a culture of transparency and information sharing. It should
      explore the following mechanisms to do so:
           •   Create and actively populate an Intranet site (secure subnet) with report and
               process information that will enable more productive and efficient workflow.
           •   Contribute to Amtrak’s monthly internal publications to communicate about OIG
               work efforts and celebrate staff successes and milestones.
           •   Develop visual dashboards and representations of ongoing work to communicate
               the status of organizational activities.




                                               41
          •   Have senior leadership conduct a number of field visits and divisional staff
              meetings annually.
          •   Adhere to a regular schedule of senior staff meetings and office-wide meetings,
              utilizing video conferencing capability if possible.
          •   Build a measure regarding internal communication and information sharing into
              employee accountability plans.

External Communications

Quick Wins:
   6. Develop a practical, “applied” definition of independence and a succinct statement of the
      benefits and value of an independent OIG for use with the OIG staff, Amtrak Board of
      Directors, and Amtrak Senior Management. This would serve to clarify the nature of
      OIG’s work and help build support for its transformation.
   7. Once new work processes are established this fall, OIG leadership should meet with both
      Amtrak and Congressional stakeholders to brief them on the new processes, and let them
      know how and when each of them can expect to receive updates, be part of an official
      comment period, and/or receive information and reports.

Longer Term Recommendations:
   8. Establish standard procedures for reporting to external stakeholders. It should carefully
      develop a manageable list and schedule of regular updates (both oral and written),
      examples of which may include the following:
          •   Develop a standard reporting instrument and structure for congressional
              stakeholders.
          •   Author a monthly column in the Amtrak newsletter. (This does not have to be
              authored by the IG each month; AIGs, project leaders and other staff could
              contribute.)
          •   Provide regular written updates to the Amtrak Board to supplement meeting
              presentations; these could also be sent to management and Congress to promote
              transparency.
          •   Establish protocols for communicating with the Board, management and
              congressional staff, utilizing key technology resources.
          •   Significantly improve the OIG website to create a user-friendly and informative
              tool for communicating about OIG activities and results.

   9. Develop and conduct “OIG 101” training sessions. OIG and Amtrak staff, some
      members of Amtrak senior management, and the Board of Directors could all benefit
      from a practical presentation that explains what it means to interact with an independent
      OIG, including examples of “good” and “bad” interactions.




                                              42
Work Planning and Prioritization

Quick Wins:
   10. Create a means to identify and close out all low-priority OIG work by the end of this
       fiscal year. One approach would be to require all staff to submit to their AIG an inventory
       of all open projects under their purview, including the date the project was initiated, the
       current status, the staff assigned to the project and estimated staff time required to
       complete the work, and the projected completion date. If the projected completion date is
       after October 1, 2010, the project lead should provide a written justification as to why the
       work should not be terminated.
   11. Discuss areas of perceived risk with the Amtrak Board and management, with the goal of
       identifying issues to be addressed in the annual OIG work plan for the coming fiscal year.
   12. Hold an extended (potentially offsite) meeting of senior staff from headquarters and field
       offices, AIGs, and senior OIG leadership to discuss and finalize the upcoming year’s
       priorities.
   13. Institute a twice-yearly meeting among all AIGs and Amtrak senior team members to
       discuss any areas of concern regarding OIG/Amtrak interaction, as well as perceived or
       emerging risks to the corporation.

Longer Term Recommendations:
   14. Develop a comprehensive work prioritization plan, including interim operational
       milestones and a communications plan, that will launch in Fall 2011. The plan should
       result from a process that is owned by the senior management team, includes OIG staff
       and stakeholder input, and applies risk factors and criteria to prioritize work. It will also
       be important to develop and implement a communications strategy for the work plan that
       is undertaken in fall 2010. Staff should understand that the formal work prioritization
       process will be launched in fall 2011, but interim steps are being undertaken to ensure
       continued progress. Ultimately, the annual work plan must be clearly aligned with the
       OIG’s Strategic Plan and Human Capital Plan.

Quality and Timely Work Processes

Quick Wins:
   15. Ensure that productive, engaging training on the newly developed policies and
       procedures for Audit and I&E occurs this fall.
   16. Require and provide basic written instruction to all OIG employees to utilize the
       appropriate electronic project management system, so that data can be documented and
       project progress can be assessed.
   17. After training is completed, identify a number of audits or other work that can be
       completed within a relatively short time period (e.g., 120 days). This work can provide
       indicators of whether employees understand and are adhering to the new policies; it will
       also provide the benefit of being able to provide finished work products to share with
       Amtrak, the Hill and OIG staff in the relatively near term.


                                                43
   18. Find any and all opportunities to celebrate products of the improved work processes and
       training. Recognize strong employees and report success. Provide examples of “good
       reports” and models of behavior going forward.
   19. For Investigators, establish a deadline by which they must meet Attorney General
       Guidelines to carry firearms and carry out law enforcement actions, and create a plan of
       action for those who are unable to meet the required standards.

Longer Term Recommendations:
   20. Continue to place priority on developing internal policy and guidance, and pay special
       attention to defining how Yellow Book standards will apply to audits and evaluations.
       Many of the basic principles apply to both types of work. Efforts should also continue to
       codify internal guidance on investigative practices. This work deserves priority attention,
       as the positive improvement of the office depends heavily upon having these solid
       foundations of policy and guidance.

   21. Ensure compliance with internal policy and guidance once they are developed. Specific
       approaches include the following:
           •   Make the guidance and tools easily accessible. Devote resources to host and
               maintain policies and procedures on an OIG Intranet site, with access open to all
               OIG staff for easy reference.
           •   Require that all staff members use TeamMate and AIMS in accordance with the
               underlying policy’s intended goals. Centrally manage customization and training
               to ensure a unified approach.
           •   Develop and execute a training plan for staff in basic office processes and
               practices. Conduct the training shortly after finalizing the guidance to expedite
               the transition to a consistent work approach.
           •   Monitor application of standards and hold managers and staff accountable for
               following the policies and procedures on a regular basis, as well as in annual
               performance reviews. Employ a routine, “dashboard-type” progress report
               against work plans, and a consistent quality assurance review process to reinforce
               adherence to standards in methods and final products.

   22. Consider whether field offices should be relocated, eliminated or staffed differently, in
       light of new OIG work flows, supervisory relationships, and project staffing. Ensure that
       each OIG field office can operate cost-effectively: that it has adequate work to perform;
       its location is consistent with the work that OIG needs to be performed; it has a critical
       mass of employees to perform the necessary work; and it has a supervisor who has an
       appropriate number of employees to manage, as well as the experience and skill set to
       provide employees with the necessary guidance and supervision. In some cases, field
       offices may need to be consolidated and/or supervisors may have to be hired.




                                               44
Independence

Quick Wins:
   23. Continue to have conversations with Amtrak management and the Board about its role
       and resolve issues as they arise (e.g., Amtrak salary guidelines for OIG employees).
   24. Request an informal CIGIE consultative review to confirm that the policies and
       procedures agreed to by management and the IG are being consistently implemented.
       Doing so could help to ensure that OIG is on track to pass the follow-up review next year.

Longer Term Recommendations:
   25. Use the recently developed relationship policy to educate all stakeholders about the roles
       and responsibilities of OIG and Amtrak. In addition, OIG should develop a practical,
       applied definition of “independent yet transparent”.

   26. Work with Amtrak management and Board to eliminate Amtrak-imposed restrictions on
       OIG’s use of funds, hiring actions or other resources that may adversely affect OIG’s
       ability to fulfill its responsibilities. For example, the Panel recommends that OIG’s
       relationship with Amtrak Human Resources be reviewed and redefined so that OIG
       recruitment is not stalled or inhibited.

Policy Management and Updates

Quick Wins:
   27. Review recently developed policies at all-staff meetings, monthly AIG unit meetings, and
       other internal forums. Recently developed policies have been posted on the secure
       subnet, but not yet read or fully understood by most staff.
   28. Develop tools and training that demonstrate the practical application of the policies; for
       example, an Agent Handbook for Investigators or step-by-step examples of well-executed
       audits.
   29. Define the roles and responsibilities of the M&P group

Longer Term Recommendations:
   30. Clarify the roles of the functional groups (audit, investigations, and evaluation) and the
       M&P and Legal groups in the policy development and update process. In particular,
       there is a need to:
           •   More clearly articulate the roles and responsibilities of the M&P group, and
               ensure that the jobs and skills of staff within the group are aligned with the
               group’s responsibilities.
           •   Define the working relationship and work flow between the functional leaders and
               M&P and Legal.
           •   Engage managers and staff leaders in reviews of draft policies.




                                                45
Human Capital Management

Quick Wins:
   31. Incorporate the development of a skills inventory into upcoming training delivery. Take
       advantage of upcoming opportunities to determine what employees know (and don’t
       know), as training is launched.
   32. Streamline the number of job titles, make job titles consistent across functional units, and
       develop standardized position descriptions that accurately reflect job requirements. For
       example, in Investigations, document and inform staff of the requisite training associated
       with law enforcement positions.
   33. As new training initiatives are implemented, establish a tracking system to monitor
       employee needs and completion of coursework.
   34. Continue to engage those employees who have participated in the benchmarked OIG
       interviews and give them ownership of process improvement ideas that have resulted
       from those interviews.

Longer Term Recommendations:
   35. Conduct a comprehensive human capital needs assessment and develop a human capital
       plan. Areas of focus should include the following:
              • Competitive market salary guidelines;
              • Recruitment strategies;
              • Skills inventory development;
              • Position description development;
              • Performance management;
              • Recognition and reward programs;
              • Leadership training and development; and
              • Retention strategies
              • Succession planning
   36. Establish processes for creating cross-functional teams and ultimately build them into its
       work planning process. This should take place only after improvements are made to
       human capital management, internal communication, work prioritization processes, and
       as working relationships become more effective within the office. As individual projects
       are planned and initiated, OIG should consider whether a cross-functional approach is
       warranted on a case-by-case basis.

Performance Measures

Quick Wins:
   37. Establish a process to track, on at least a quarterly basis, the metrics that all OIGs must
       report.
   38. Start the process of engaging Board members and Amtrak leadership in a discussion
       about how to measure value of OIG work in a meaningful way; this can also serve to


                                               46
       educate them about the type of work that the office will be doing and how interactions
       should occur.

Longer Term Recommendations:
   39. Engage the Amtrak Board and senior leadership in an ongoing dialogue about how the
       OIG can effectively measure the value and impact of its work, and cooperatively identify
       qualitative and quantitative performance measures. These measures should be used along
       with standard OIG measures to capture the value of the work performed.

   40. Identify the most critical managerial and operational performance objectives and track
       their achievement using key performance measures. This should include development
       and implementation of a performance tracking system for key measures related to
       accomplishment of OIG’s goals, including outcome and output measures. These
       measures should be monitored and discussed by senior management on a regular basis,
       and used as a tool for setting work priorities and making resource allocation decisions.
       OIG also should consider defining measures that support its change initiative.

   41. Incorporate key organizational performance measures into its individual performance
       management system.




                                              47
                                                                                     Appendix A


                                     Appendix A
                                   Content Analysis
                               OIG Senior Staff Interviews

INTRODUCTION

The Academy Study Team conducted 17 one-on-one interviews with the OIG Executive team
and other suggested OIG staff members, notably those who participated in the development of
the FY 2010-2015 Strategic Plan. The purpose of senior staff interviews was to obtain
perspectives regarding OIG key internal functions, work processes and policies, organizational
structure, communication processes, and organizational culture and climate. All interviewees
were assured that comments would not be attributable to any particular individual.

This report contains a summary analysis of the comments that were made by the Amtrak OIG
senior staff members. The interviews were guided by a framework of questions that addressed
three areas:
        • OIG core strengths;
        • Areas in need of improvement; and
        • Service/value to stakeholders.

The same framework was used in this report to aggregate the interviewees’ comments.

SUMMARY

Amtrak OIG has a group of dedicated staff who are committed to improving the quality of their
work. Interviewees expressed confidence that, under the new OIG leadership, the OIG is
heading in the right direction; some also expressed frustration that staff received minimal
communication as to what the new direction will entail. Interviewees pointed out that, in order
to improve the quality of OIG work, staff need to be trained on the skills and knowledge-set
required to conduct the higher-value work that will achieve greater impact. Almost all
interviewees agreed that the OIG should focus its work on “big picture” or strategic issues
affecting Amtrak, and emphasized the desire for more structured work processes that follow
professional standards. Many interviewees referenced a highly “stove-piped” organization with
minimal teamwork, suggesting a deep need for more effective internal communications.
Independence was a concern, and interviewees recognized the danger of the OIG’s past
participation in Amtrak management’s decision-making process. Interviewees agreed that it is
critical that the IG develop well-defined processes and roles and responsibilities, and also build
positive stakeholder relationships.

CORE STRENGTHS OF THE OIG

At the beginning of the interviews, members of the senior staff were asked to focus on the
positive attributes of the organization and to identify the core strengths of OIG. “People” and
“the new leadership” emerged as the main themes. However, only a few interviewees offered
substantive elaborations on their answers.



                                           A-1
                                                                                    Appendix A

People

The people within OIG were identified as the biggest asset of the organization by almost all of
the interviewees. Most believe that:

 •   The OIG is fortunate to have a dedicated team of professionals who have a deep knowledge
     of railroad operations and are loyal to both Amtrak and the OIG.
 •   Most staff would be receptive to receiving training..

New Leadership

A strong majority of interviewees identified the new leadership as a core strength. People agreed
that strong, unified senior leadership is critical for the organization’s success. Illustrative
responses included:

 •   The new leadership has demonstrated the ability to make the office productive, and they are
     in the process of improving the OIG’s relationships with Amtrak and Congress. The OIG is
     on the right track.
 •   The reorganization (the establishment of the Deputy IG position and the separation of the
     Investigations group and the Legal group) has been generally well-received by the OIG
     staff.

WHAT’S NOT WORKING

When asked about needed areas for improvement within the OIG, interviewees provided a wide
range of responses. Major themes that emerged were focused on the following areas:

 •   Culture and climate
 •   Types of work initiated and conducted
 •   Standardization of work processes
 •   Human capital management
 •   Communication
 •   Strategic planning
 •   OIG independence
 •   Organizational structure
 •   Leadership

Culture and Climate

Cultural issues were mentioned by almost every interviewee. Example responses included:
   • The organizational culture of the OIG has been deeply “stove-piped.”
       o There were very few relationships among the Audit, Investigations, and I&E groups
            at either headquarter or field levels.
       o There has been - and continues to be - a “turf-war” dynamic in the office; senior
            managers compete for resources and have not been encouraged to work together.



                                          A-2
                                                                                        Appendix A

          o Cross-functional teams might be a good way to build cooperation and teamwork in
              the organization. OIG has used some cross-functional teams in the past (e.g., the
              health care unit), but it was apparent that staff did not have strong communication
              even when they were on the same team.
     •    OIG staff tended to operate under a veil of secrecy and did not want to share information
          with Amtrak. OIG staff did not understand the difference between being transparent and
          independent.
     •    There continues to be resistance to changes in the organization. People do not know what
          the senior leadership team’s plan is for the OIG, and are thus very concerned with their
          job security.
     •    Due to a lack of standard processes and deadlines, managers did not hold staff
          accountable for their work; on the other hand, staff was not eager to be held accountable.

Type of Work

A majority of interviewees pointed out that the types of issues being audited, inspected, and
investigated needed to be redefined in order to focus on higher-level issues affecting Amtrak.
Examples included:

 •       Audit:
          o OIG has been performing internal audit/control functions for Amtrak by conducting
              station audits, railroad audits, and vendor audits. The company should not rely on the
              OIG to provide these internal control functions, and they should be fully transitioned
              to Amtrak. The OIG audit group would then be able to conduct performance audits
              (vs. compliance audits) that will prove more impactful to Amtrak.
          o There has been no coordinated, centralized process or criteria for identifying
              appropriate audits; the decision to initiate an audit has historically been made in a
              bottoms-up manner and was not centralized or coordinated to ensure that the right
              issues were being examined. The OIG needs to develop an annual audit plan that will
              identify priorities for the coming year, yet maintains the flexibility to respond to
              urgent needs on a real-time basis.

 •       Investigations:
           o A large number of investigative cases were initiated at an individual level, and did not
              address more impactful, big-picture fraud.
           o There have been no consistent standards and procedures established for opening (or
              closing) investigative cases.
           o The hotline has been the primary source to receive fraud complaints, but it has not
              been adequately staffed so that tips could be appropriately addressed.
           o The Investigations group should be more proactive in order to identify impactful, big-
              picture company fraud. Once Investigators are trained on how to identify fraud, they
              could in turn provide the fraud awareness training to Amtrak employees, so that
              Amtrak employees can identify fraud indicators.




                                              A-3
                                                                                       Appendix A

Work Processes

A need for improvement in work processes was another frequent response. Interviewees noted
that the processes that support the work of the functional units needed to be better defined so that
resources can be properly aligned and final reports can be standardized at a consistent and high
level of quality. A desire for more structured processes and quality control clearly emerged. Key
issues related to work processes included:

 •   The audit process has not complied with professional standards (e.g., Yellow Book). Audits
     should be completed in a timely manner (e.g., have established deadlines) and should be
     fact-based (e.g., have a set of quality control criteria that need to be met).
 •   The Investigation group has not followed standard procedures (e.g., they would conduct
     interviews without appropriate warnings to Amtrak employees). Investigators need to
     follow the Quality Standards for Investigations.
 •   The I&E group has produced some high-quality products, but these reports also did not
     follow consistent standards, primarily because the staff in the group were not familiar with
     what standards needed to be followed.
 •   There has not been a process to implement or track OIG recommendations. People are
     hopeful that the new Amtrak audit liaison will help track and follow-up on OIG findings
     and recommendations.
 •   Technological tools such as TeamMate for auditors and AIMS for investigators are not
     widely used by OIG staff. Staff should use the system so that progress can be tracked.

Human Capital

Human Capital was mentioned by most of the senior staff interviewed. Typical comments are
provided below:

 •   Knowledge, skills, and training issues.
      o In the Audit group, staff was not trained as to the type of audits that should be
         initiated, as well as the standards that should be followed throughout the auditing
         process. Everyone in the audit group (including senior directors) has been asked to
         undergo basic audit training.
      o The majority of the investigation staff do not have law enforcement authority, and it
         is important that they receive the basic federal training to become federal
         investigators. However, some people may not be able to take or pass the training due
         to physical limitations.
      o It is important to develop expertise in different areas. For example, it has become
         increasingly important for investigators to receive specialized training in accounting,
         auditing, procurement, and white-color crime.
      o The OIG has a number of staff members with highly-specialized knowledge about the
         railroads (the I&E group in particular), and sometimes it has been difficult for these
         specialists to take on the jobs outside their areas of expertise. While this railroad
         expertise is valued, the OIG should also develop generalists with strong audit and
         investigative skills.



                                            A-4
                                                                                    Appendix A

       o OIG staff need to be trained to develop stronger writing, editing, and communication
         skills
       o The organization is at risk of losing valuable institutional knowledge about railroad
         operations within the next few years due to impending retirements.

 •   Administrative challenges.
      o OIG has a large number of senior employees who are nearing retirement, but there is
         not a succession plan in place.
      o OIG has not effectively managed its workforce development function.
      o There are currently too many job titles and no standardized job descriptions, as well
         as an unclear supervisory chain or career progression plans.
      o Employee evaluations have historically been rarely tied to employee performance.
         OIG had an across-the-board salary increase in the past several years, and there was
         no differentiation for or recognition of high-performing employees.

Communication

Communication practices were identified as a priority area for the OIG. Most of the interviewees
recognized the importance of improving both internal and external communications.

 •   Internal Communication
       o There was limited top-down communication, so rumors spread quickly within the
           organization. There has not been a structured process by which OIG senior leadership
           routinely shared information with staff members.
       o Many interviewees mentioned that it has been helpful to have the all-hands meeting,
           the all-staff memo from the leadership, the weekly senior leadership team meeting,
           etc. Continued communication – both formal and informal – among all levels of the
           organization would be valued.
       o It is necessary to explore additional ways to build internal communications. However,
           people also realized that simply having these channels in place is not sufficient to
           ensure effective communication.
       o There was very limited communication among the Audit, I&E, and Investigations
           groups; communications within the groups and between field offices has been limited,
           as well.
       o There are minimal automated systems, and those that exist are not well used by OIG
           staff.

 •   External Communication
      o OIG staff need to better communicate with Amtrak employees about the information
          needed and the work being conducted by the OIG, without divulging sensitive
          information. There needs to be more transparency between OIG and Amtrak in order
          to build trust.
      o The website is an important tool for OIG external communication, but the current
          OIG website is not strong.
      o OIG leadership is spending time up on the Hill and is improving these relationships.




                                          A-5
                                                                                    Appendix A

Strategic Plan

Some senior staff offered comments on the development of the new OIG strategic plan.
 • Given the time constraints, the strategic plan is a good product. However, there was not a
    strong, underlying development process in place that could be replicated.
 • The strategic plan was developed by a group of mid-level staff members, and the senior
    team was not much involved in the development process.
 • OIG did not perform its own risk assessments before developing the plan.
 • There was only very limited follow-up discussion on the strategic plan within the
    organization. People likely do not understand how their work, on a day-to-day basis,
    relates to the strategic plan.
 • OIG needs to develop annual work plans and performance plans that are linked to the
    strategic plan.

Independence of the OIG

During the interviews, many concerns were raised related to the OIG independence issues.
Interviewees noted that:

 •   OIG was too involved in the management decisions of Amtrak and participated in the
     company’s decision making process.
 •   Conflicts of interest may arise when the OIG hires former Amtrak employees. OIG has a
     number of people (particularly in the I&E group) who used to work at Amtrak.
 •   OIG used to completely rely on Amtrak for funding.
 •   OIG relies on the company for HR management and parts of its IT system, which has
     presented some issues relating to timely access of new hires to emails and delays in hiring.
 •   Education about the role of the OIG and boundaries that may or may not be crossed would
     he helpful for both OIG and Amtrak staff.

Organizational Structure

The organizational structure of the OIG was mentioned by a few interviewees. Comments
included:

 •   It is difficult to develop and maintain consistent processes and communication, as there are
     a number of field offices with minimal staff.
 •   There is a lack of clarity on the responsibilities of the Management and Policy (M&P)
     group, and the M&P group is comprised of people whose skills are not consistent with the
     needed M&P functions.

Leadership

A few interviewees offered comments on leadership issues.
 • OIG staff were performing the work that past leadership directed them to do, so past
     problems evolved from leadership’s direction (at both the senior level and mid-level) and
     was not necessarily the result of weak staff.


                                          A-6
                                                                                    Appendix A


 •   The new OIG senior leadership is valued. However, broad-based leadership training,
     including communication skills, would be helpful for certain members of the current
     leadership team.
 •   Mid-level leadership needs to share staff and resources and not “hoard” high-performing
     employees.

How Difficult Would These Changes Be?

In general, people believe that some of these changes would be relatively easy to make, given the
commitment of the leadership. .

That being said, most senior staff interviewed agreed that cultural and communication changes
would be the biggest challenge. It would take a time for OIG staff to embrace the new type of
work that the OIG needs to do, and to build trust and transparency with its stakeholders. It is
believed that, while most staff will welcome the opportunity to do high-quality OIG work, some
staff may be resistant to the change.

SERVICE/VALUE TO STAKEHOLDERS

One of the strongest concerns that came out during the interviews was the need to improve
relationships between the OIG and external stakeholders. One of the OIG’s goals in the new
strategic plan is to establish collaborative relationships and regular communications with Amtrak
management, the Amtrak Board of Directors, Congress, and other stakeholders. Most noted that
they believe relationships have been greatly enhanced since the new leadership came on board,
but there is still room for improvement.

Amtrak

 •   The current IG is working hard to establish a good relationship with Amtrak management,
     and is having regular meetings with the Amtrak CEO.
 •   The new relationship document is a good start toward building a cooperative relationship
     between Amtrak and the OIG. However, both OIG staff and Amtrak management need to
     have an ever more clear understanding of the OIG role, how they will interact with one
     another, and how the IG will operate his office going forward.
 •   Amtrak management is pleased that the IG office wants to take on higher-value work that
     would generate significant impacts on Amtrak operations.

Amtrak Board of Directors

 •   It is believed that the Amtrak Board thinks that OIG staff used to go beyond the scope of an
     OIG’s roles and responsibilities, and was too involved with day-to-day Amtrak
     management.
 •   It is believed that the relationship, trust and communication between OIG and the Board are
     improving, while independence is being maintained.




                                          A-7
                                                                                      Appendix A

Congress

 •       The interactions between Congress and the OIG used to be very limited.
 •       Congress was concerned with the independence of the IG office, and required Amtrak to
         develop proper procedures with the OIG to ensure the independence of the IG office.
 •       There is a perceived value in having the IG and Deputy IG develop strong relationships on
         the Hill.

The IG Community

     •    Amtrak OIG has been disconnected from the IG community and is not familiar with
          industry “best practices.”
     •    It is perceived that the Amtrak OIG does not a good reputation in the IG community, so
          OIG morale is low.




                                             A-8
                                                                         Appendix A


               OIG Senior Management Team and Key Senior Staff Interviewed


Ted Alves           Inspector General
Colin Carriere      Counsel to Inspector General
Bret Coulson        AIG, Management & Policy
Calvin Evans        AIG, Inspections &Evaluations
Jerry Gideon        Senior Director, Management & Policy
John Grimes         Chief Inspector
Tom Howard          Deputy Inspector General
Alan Klein          Senior Director, Audits
Dan Krueger         Senior Director, Audits
Katherine Moore     Audit Project Supervisor
Phil Ong            Director, I&E
Joe O’Rourke        Regional Special Agent-in-Charge
Nick Pinto          Acting AIG, Audits
Kathleen Ranowski   Deputy Counsel
Adrienne Rish       AIG, Investigations
Sue Ryan            Principal Officer/HCM
Catherine Smith     Chief, Inspections &Evaluations




                                       A-9
                                                                                     Appendix B



                                      Appendix B
                                   Content Analysis
                               OIG Stakeholder Interviews

INTRODUCTION

The summary offered below is drawn from a content analysis performed on the detailed notes
captured in 22 interviews with key Amtrak OIG stakeholders.

The interviews focused on the following areas:

   •   Their perceived value and impact of OIG;
   •   Things they need (gaps) or need more of from OIG;
   •   Approaches for productive engagement of stakeholders by the OIG;
   •   Independence of the OIG; and
   •   Measuring OIG performance.

While not every interviewee was asked every question (due to lack of relevancy), all five themes
were covered in each interview.

SUMMARY

The stakeholder interviewees were very consistent in their responses to certain questions, such as
how they viewed OIG, the nature of weaknesses within the OIG, and suggested performance
measures. Almost everyone had an optimistic view of the direction in which Amtrak OIG is
currently moving, given the new leadership. Interviewees acknowledged a need for change and
specifically a need for improved levels of OIG independence. A more structured, consistent
approach to conducting and communicating OIG activities was very highly prioritized by
interviewees. The value of an Amtrak OIG as an entity distinctly separate from the Department
of Transportation (DOT) IG was not completely clear to all interviewees, and stakeholders are
not certain that the OIG has the skills sets needed to complete all necessary facets of the Amtrak
OIG’s work.

VALUE AND IMPACT OF THE OIG

Interviewees were asked what value OIG brings to their organizations, and the impact of OIG’s
work. Respondents greatly value the external, independent view OIG offers, noting that it adds
objectivity and validation not otherwise available. The OIG has also offered insight into best
practices, which has been highly valued by Amtrak staff. Discussion about the value of the OIG
identified examples of deficiencies, as well as examples of activities that the interviewees would
like to see increased. The following reflects the responses to specific questions about OIG’s
value to stakeholders.




                                           B-1
                                                                                    Appendix B



Impact of the OIG

When asked “what is the impact of OIG’s work on your organization?” interviewees stressed the
importance of independence, and the need for the OIG to detect big picture trends and offer a
broader perspective. Interviewees tended to approach the question from one of two perspectives:
how an OIG can potentially offer value and impact in general; and/or how the current Amtrak
OIG provides value. Representative responses included:

General Value of an OIG Function

   •   Identifying emerging issues before they develop into real problems.
   •   Delivering fact-based reports that do not reflect personal bias.
   •   Connecting the dots between units, since the OIG has the perspective to detect high-level
       trends.

Amtrak OIG’s Value

   •   The OIG was able to recommend ways to ensure the most efficient use of federal funds.
       o For example, suggesting Amtrak apply to FRA for waivers so that they would not
          lose stimulus funding that needed to be spent within a specific timeframe.

   •   Amtrak staff appreciates that the OIG has helped them identify and translate best
       practices in managing infrastructure assets.
       o For example, OIG went to France and Spain and developed a report comparing
           Amtrak with other high speed rail operations.

   •   Particular reports produced by the audit department have provided useful, straightforward
       assessments of Amtrak operations (while others have not).

GAPS AND NEEDS

When interviewees were asked “what do you need more of from the OIG” and were asked to
discuss the shortcomings of the OIG, respondents stressed the need of the OIG to pursue “high
value” audits and investigations and to not participate in management decisions. Stakeholders
also want a more comprehensive approach to information sharing.

Amtrak Senior Management Perspective

   •   The OIG should not be in the “gotcha business” – it would be helpful if the OIG could
       provide constructive criticism and feedback that allows for a forward-leaning
       improvement plan, as opposed to waiting long periods of time for a report to be issued.
   •   Management would welcome the opportunity to give input to the OIG about their
       perceptions of high-risk areas, realizing that management would only be giving input to
       the OIG and that all decisions and reports would be at the final decision of the OIG.



                                          B-2
                                                                                   Appendix B

       Amtrak management is aware of many of their risks and would welcome the OIG
       involvement in monitoring these areas of high-risk.
   •   Amtrak management has uncovered issues in the past which they believe should have
       been identified by OIG; there have been questions in the past such as “why didn’t the
       OIG catch this?”
   •   Perception is that the OIG has operated too much in a vacuum and has not been looking
       into the right things.
   •   The quality of work produced by the OIG has been very inconsistent.
   •   The I&E group was too involved in the day-to-day management of Amtrak. Despite great
       intentions, the OIG staff were crossing a decision-making boundary that should not have
       been crossed.
   •   OIG staff needs to have relevant training and skill sets to do quality, standardize audit
       work; institutional knowledge of Amtrak is not enough.
   •   Amtrak staff are not clear about the role of an OIG, what they should expect from and
       how they should interact with them. Education for all Amtrak staff about OIG roles
       would be helpful.
   •   It is a difficult balance for Amtrak to be transparent as a federal agency, yet maintain
       competitiveness as a private company at the same time.
   •   There is a need to adjust the perception that the OIG is only really important or needed
       when the company is in trouble. The OIG can provide constructive feedback, and an
       opportunity to learn how to do better.
   •   The company does not have experience in dealing with the OIG in a productive,
       constructive manner, but welcomes the opportunity to do so.

Board Member Perspective

   •   The Board of Directors is generally satisfied with the communication and information it
       is receiving from the IG. However, it was suggested that the IG could have more quality
       time on the agenda at the monthly board meetings.
   •   There is a perception that some Board members, while deeply experienced in
       government, may not have strong Board/governance experience. It might be useful for
       Board members to receive regular governance training (vs. programmatic training of
       Amtrak operations), including how to interact with an IG.
   •   There is the perception that there are individuals within Amtrak OIG who have close
       relationships with individuals on the Hill, and have leaked damaging information about
       Amtrak to the Hill.
   •   Board members believe that processes within the OIG need to be standardized, so that
       OIG staff can understand what their job is and do quality work.
   •   Board members understand that changing culture can take time.

Congressional and Other External Stakeholder Perspective

   •   It is not always clear what value Amtrak OIG brings that could not be provided by the
       DOT IG.
   •   The Amtrak OIG needs to engage Congress in a meaningful, proactive, and transparent
       way.


                                          B-3
                                                                                    Appendix B


   •   In the past, the former IG did not share information regarding potential issues soon
       enough and this made it harder for Congress to address issues.

PRODUCTIVE ENGAGEMENT OF STAKEHOLDERS

Stakeholder Needs

When asked what they need more of from the OIG, almost all stakeholders expressed a need for
greater, more coordinated communications. Communicating areas of perceived risk and the
business case for future activities were mentioned numerous times. Additionally, it was
repeatedly suggested that the IG engage external stakeholders more comprehensively and
maintain a productive dialogue to ensure that expectations are being met.

Virtually all interviewees expressed a desire for improved communication processes with the
OIG. The benefit of consistent and predictable communications was stated often, and examples
of why communication is so integral were shared frequently. Anticipated benefits include less
redundancy and more effective problem solving at multiple levels. Examples included:

Key Issues Regarding Communication

   •   There has been a good deal of communication about how the OIG will change its
       practices going forward. While this talk about how things will be done differently going
       forward is a good starting point, the real change will come when OIG reports under the
       “new regime” start being initiated and produced.
   •   The OIG needs to demonstrate how OIG work can improve efficiency and provide value
       to Amtrak. Demonstrating this value, and a cooperative, constructive nature of work,
       will alleviate the Amtrak staff fear currently associated with the OIG.
   •   As part of a strategic planning/annual planning process, the IG could have conversations
       with the Board of Directors and with Amtrak leadership about perceived risks, without
       compromising independence. The IG could get input, but would maintain the final
       decision-making authority.
   •   In the past, OIG staff have launched an audit without a formal introduction or
       information request to Amtrak, and then just disappeared for 6 to 8 months without any
       reporting or communication.
   •   The IG needs to share his perception of prioritized risk, and share more details about why
       things are being done. Presenting a purpose for a review or a business case for
       completing a strategic plan provides more clarity to stakeholders.
   •   The IG has been meeting regularly (and separately) with the Amtrak Chief Executive
       Officer and the Amtrak Board Chair, which seems to be effective.

Approaches to Engaging Stakeholders

When interviewees were asked about “how the OIG can engage with you in ways that maximizes
its value” discussions focused on a variety of communication approaches that enable
stakeholders to be informed without overstating their role in the process. Illustrative responses
included:


                                          B-4
                                                                                   Appendix B




Amtrak Senior Management Perspective

     •    The IG should continue to develop a collaborative, constructive relationship with
          Amtrak that maintains the independence of the OIG.
     •    As part of the annual planning process, the IG could engage Amtrak senior leadership
          on issues of concern or perceived risk – Amtrak senior management is well aware of
          their areas of perceived risk and would welcome OIG oversight. It is recognized that
          the IG would merely collect their perspective, and would have the final decision as to
          what the OIG examines or what is contained in a report.
     •    It would be useful to receive interim reports from the OIG, so that management does
          not have to wait a long period of time to receive feedback about areas of concern.
     •    It would be very useful to educate all Amtrak staff about the nature of a high-
          performing OIG, and how OIG staff and Amtrak should interact with one another.
     •    The OIG and Amtrak legal teams need to improve their levels of mutual trust and
          communication.
     •    The OIG needs to ensure that it communicates issues in a timely fashion, recognizing
          the need for urgency and a proactive approach.

Board Member Perspective

     •    IG could engage the Board of Directors around areas of concern when performing the
          annual audit planning process; while learning about Board members’ areas of
          concern, the final decision making authority would rest with the IG.
     •    IG should continue to attend Board meetings monthly; however, it has been suggested
          that the IG should have more quality time on the agenda.
     •    Since the IG reports to the Board chair, and not to the full Board, it is recommended
          that the IG meets with the Board chair regularly (i.e., monthly) to discuss on-going
          issues.
     •    The IG should participate in some Amtrak meetings in order to remain informed
          about Amtrak operations and maintain a pulse on the organization. However, if the
          IG does attend regular management meetings, it is critical that the IG observes and
          listens, and does not participate in management decisions.

Congressional and Other External Stakeholder Perspective

     •    Some Amtrak staff believe that it is inappropriate for the OIG to consult Congress on
          Amtrak activities.
     •    OIG needs to fully understand political dynamics and congressional legislation
          affecting Amtrak and act on them accordingly in order to maximize their impact for
          the company.
     •    The IG should meet with the Board monthly, and should have regular face-to-face
          meetings with the Board chair to discuss on-going issues.



                                         B-5
                                                                                       Appendix B




INDEPENDENCE OF THE OIG

Much of the stakeholder engagement discussion incorporated the importance of maintaining
independence. Further questions included “What kinds of things should be done by OIGs to
maintain their independence?” Stakeholders interviewed expressed a great deal of concern with
the Amtrak OIG’s independence. Interviewees shared the following thoughts:

Board Member Perspective

     •    It is critical that the Board act in accordance with the fact that the IG reports to the
          Board Chair - not the full Board - and that neither the Board chair nor the Board can
          direct OIG activities.
     •    The IG can and should engage and communicate with the Board, all the while
          maintaining the final decision making authority.
     •    It would be useful to have an interim review that focuses solely on OIG
          independence, to ensure that all the right measures have been undertaken by the
          time CIGIE conducts its follow-up review next year.

Amtrak Senior Management Perspective

     •    There is a need to educate not only OIG staff about how a high-performing OIG
          operates, but also to educate Amtrak staff and Board members about how an OIG
          should interact with them, so there is no abuse of power or decision-making
          boundaries crossed that should not be.
     •    OIG should not be addressing management issues; that needs to be done by Amtrak
          management. Lower-level issues that the OIG identifies should be passed along to
          management to deal with. This is being done much more effectively than it was with
          old IG.
     •    It’s very difficult to audit or investigate the office from which you came and conflicts
          of interest arise.
     •    Those with specific Amtrak subject matter expertise can be a resource assisting those
          with audit and inspection report writing skill sets. A balance of skills is ideal.
     •    Those who are perceived as “friendly” to the OIG have been rarely criticized in
          reports, and those who are not perceived as “friendly” often seem to receive an
          inordinate amount of criticism.
     •    The recommendation of a single initial grant directly to the Inspector General of
          Amtrak, separating its funding source from the entity it is responsible for overseeing,
          reflects progress towards achieving the appropriate level of independence..

Congressional and Other External Stakeholder Perspective

     •    There was a perception that the former IG and the Board had a relationship that was
          very close and prevented true objectivity.


                                           B-6
                                                                                         Appendix B


     •       Board members need to understand that they cannot direct the OIG, as this position
             reports to the Board Chair only. Board members also can not give direction to the IG.
     •       Management has historically liked the "blessing" of having the OIG know about a
             decision before it’s made. OIG should not be involved in this part of the process.
     •       Amtrak management needs to make operational decisions independently, and then
             have the OIG can review it later if necessary.
     •       It is feasible for IG offices to share administrative services with its agency and remain
             independent, assuming data integrity, timeliness, and privacy are not issues.

PROCESS IMPROVEMENTS

Many of those interviewed shared concern that the lack of established processes has hindered the
effectiveness of the OIG. The standardization of regular processes guiding day-to-day activities
was referenced by numerous stakeholders. Process areas addressed frequently included audit,
strategic planning and risk management. Specific issues surrounding process improvements
included:

         •   A need to have top down, strategic prioritization of OIG work, rather than bottom-up
             determination from lower level OIG staff.
         •   A need for a formal, standard processes (with established quality control deadlines)
             so that Amtrak staff know what is needed and expected of them, including:
             o Formal engagement announcement
             o Entrance conference
             o Information request
             o Draft report
             o Comment period
             o Final report to be made public
         •   OIG staff need to receive training on these standard processes, so that all staff have
             the ability to complete their job responsibilities in a consistent, quality manner
         •   OIG staff need to input information into the relevant technology (e.g. TeamMate) so
             that work progress can be tracked and resources can be adequately managed
         •   Amtrak OIG should utilize Amtrak resources available to assist with information
             gathering
             o Audit Liaison position role is to help gather information during an audit (in
                 addition to track recommendations) and is currently under-utilized
         •   Legal process and protocols need to be established
             o Identify necessary protocols for interaction when company has exposure
             o Develop interaction procedures between OIG and law department within Amtrak.
         •   OIG needs to hire staff with necessary analysis skill sets, and consider rotating these
             staff members through Amtrak to help them understand the business
         •   Strategic, audit and operating plans should be published on the Amtrak OIG website,
             and made readily available to all stakeholders.


MEASURING OIG PERFORMANCE
Interviewees were asked about ways to measure the performance of the OIG.


                                             B-7
                                                                                     Appendix B



Identifying Metrics

When asked to identify ways to measure the OIG’s performance, interviewees stressed the need
for the OIG not to get “down in the weeds” and to operate at a level of high-impact,
organizational performance. Interviewees agreed that a period of reflection is necessary to assess
the results of the audits and investigations. It was also agreed that looking at other comparable
OIGs for best practice benchmarks can be very helpful. Examples of approaches that were
mentioned include:

       •   Quantitative measurements are helpful and necessary for GAO purposes, but it is also
           important to consider “subjective” performance measurements that measure impact to
           the agency.
       •   OIG staff may gain benefit from researching audits that other comparable OIGs are
           doing in an effort to determine appropriate audit areas and metrics.
       •   In order to identify metrics, the OIG should ask itself:
           o “Did we add value this year?”
           o How practicable were the recommendations?
           o How many were implemented?
           o What recommendations were not implemented?
       •   The OIG report and recommendations should have real impact on Amtrak efficiency
           improvements. Factors to consider include do they:
           o Save money?
           o Decrease processing time?
           o Increase number of on time arrivals?
           o Increase safety?
       •   The number of reports issued and number of recommendations made are NOT the
           most useful measures.
       •   The value of the OIG should not be correlated to the number of problems that Amtrak
           has but to the ultimate improvement that results from OIG work.
       •   Recruitment and retention goals met serve as good metric of success for OIG.
       •   Managing change is an integral measure of performance for the current IG.
       •   It is also important to have performance metrics at an individual employee level, to
           encourage and recognize good work.

SUMMARY

In summary, key highlights across the interview data suggest that the OIG is moving in the right
direction and has to continue initial steps at stakeholder engagement. Common themes that
emerged from the stakeholder interviews include:

       •   There is a need to continue to elevate the focus of the OIG’s work on big picture,
           strategic work that delivers high levels of impact for Amtrak.
       •   More formalized schedules and processes for information-sharing will continue the
           initial momentum achieved by the IG, and allow the OIG to operate more efficiently.



                                           B-8
                                                                                 Appendix B


•   The working relationships between members of the OIG and Amtrak senior
    leadership and Board members have improved. However, education for all Amtrak
    staff, senior management, and Board members about the role and expectations of an
    OIG would be useful to ensure a constructive partnership.
•   There is still a level of uncertainty among many stakeholders regarding roles and
    responsibilities of the OIG, the benefits it can and will deliver, and the viability of an
    IG entity that is unique to Amtrak and not part of the DOT IG structure.
•   Many of the OIG’s external stakeholders have stressed the importance of clearly
    articulating expectations and managing the relationships effectively so that these
    expectations can be met.
•   Communications between the OIG and Congressional staff needs to be coordinated
    and transparent so that a results-driven dialogue is taking place.
•   The OIG can harness best practices and lessons learned from other IGs by engaging
    with the great IG community and taking more proactive steps towards improvement.




                                     B-9
                                                                                   Appendix B


                                   Stakeholders Interviewed

Amtrak
Eleanor Acheson      Amtrak Vice President and General Counsel
Joseph Boardman      Amtrak Chief Executive Officer and President
William Crosbie      Amtrak Chief Operation Officer
Stephen Gardner      Amtrak Vice President of Policy and Development
Lorraine Green       Vice President, Human Resources and Diversity Initiatives
                     Amtrak Vice President of Government Affairs and Corporate
Joe McHugh           Communications
DJ Stadtler          Amtrak Chief Financial Officer
Jessica Stritchfield Amtrak Principal Audit/Controls Officer
Congressional Stakeholders
Ellen Beares         Senate Appropriations Staff Member
Emilia Disanto       Chief Investigator, Senator Grassley (R-IA)
Jason Foster         Investigative Counsel, Senator Grassley (R-IA)
Sylvia Garcia        House Appropriations Staff Member
Rachel Milberg       Senate Appropriations Staff Member
Other Stakeholders
                     Inspector General, Farm Credit Administration and Vice Chair of Council of
Carl Clinefelter     Inspectors General on Integrity and Efficiency
Dave Dobbs           Consultant
Don Hickman          Consultant
J. Steven Patterson  Partner, Hunton & Williams and Head Counsel for Amtrak Board
Lex Stefani          Consultant
Board Members
Tom Carper           Board Chair, Amtrak
Donna McLean         Member of the Amtrak Board of Directors
Nancy Naples         Member of the Amtrak Board of Directors
Mark Yachmetz        FRA; Ex-officio member of the Board of Directors




                                          B-10
                                                                                                 Appendix C



                                    APPENDIX C
                          SUMMARY OF STAFF SURVEY RESULTS
The OIG staff survey was designed to solicit the input of staff members across the OIG,
particularly those who were not part of the interview process. The survey asked questions about
the work processes, leadership, communication, and other areas related to working in the OIG.
The staff survey was disseminated electronically on June 4, 2010, to 90 individuals in the Office
of Inspector General. It closed on Wednesday, June 16. The survey consisted of both open-
ended and discrete choice questions.

DEMOGRAPHICS

A total of 90 members of the OIG received a survey invitation. Of those, 83 (92%) answered at
least portions of the survey and there were a total of 74 (82%) completed, valid records for
analysis. 1

Respondents are spread across the various levels of tenure in the OIG:
      • 30% have worked in the OIG longer than 11 years
      • 25% have worked in the OIG 6-10 years
      • 33% have worked in the OIG 1-5 years
      • 12% are new employees, who have been with OIG less than one year.

Most of the respondents work in Audit (46%). Representation of each office is fairly consistent
with the actual distribution of employees (Table 1).


                         Table 1. Distribution of Respondents and Staff Across Offices
                                                                            Percent of Percent of
              Offices                                                      Respondents   Staff
                                                                             (n=78)     (n=92)
              Audit                                                          46.2 %      42%
              Inspections & Evaluation                                        12.8%      11%
              Investigations                                                  30.8%      30%
              Counsel to the IG                                               3.8%        5%
              Management & Policy                                             6.4%        8%

Just over half (58%) work in OIG field offices, with the remainder (42%) working at
headquarters. Approximately one-third (36%) once worked directly for Amtrak.




1
    One case reflected the input of the IG and was removed from the dataset prior to analysis.


                                                          C-1
                                                                                    Appendix C


OIG STRATGIC PLAN

Most respondents indicated they have a good understanding of the OIG Strategic Plan (with
81%, n=64, indicating they “agree” or “strongly agree” with the question). The same strong
majority (81%, n=64) support the goals described in the strategic plan.

Most indicate they understand how their work relates to the goals in the plan (76%, n=60), and a
strong majority (78%, n=61) indicated that their supervisor expressed support for the goals.

Example comments include:
   • Given the guidance and allotted time, the OIG Strategic Plan is a good product.
      However, to do it “right,” more time will be required to do a full assessment of the
      current environment to better identify critical areas for the department to focus.
   • Strategic plan seems too focused on cooperative efforts with Amtrak management, rather
      than the oversight of Amtrak, which is the OIG mission.
   • There has been limited communication on how we plan to implement this strategy and
      what the OIG role will be in helping Amtrak meet its strategic goals and objectives.

ROLE OF OIG

Functional Priorities. Staff were asked to indicate the current emphasis placed by the OIG on
the five different functions. The data indicate that the current emphasis is: 1) Audits, 2)
Investigations, and 3) Management and Policy.




                                              C-2
                                                                                    Appendix C




They were then asked what they thought the functional priorities should be, among the same five
functional areas. There was fairly clear agreement that Audits are and should continue to be the
top priority, followed by Investigations. Inspections and Evaluations moved up to third in
priority in the “should be” state, while Management and Policy moved to fourth.




                                              C-3
                                                                                       Appendix C




Oversight Priorities. Respondents were asked in an open-ended format their perception of
what the current oversight priority areas are, and what they should be. Respondents
overwhelmingly identified the Recovery Act as the current and “should be” OIG oversight top
priority. They were less clear about what is currently second and third in priority (the largest
response given was “don’t know”).

While they are somewhat unclear about the current OIG priorities, they expressed clearer ideas
about what should be the top three priorities. These were: 1) Recovery Act, 2) Waste/internal
controls/efficiency, and 3) Improvements to Amtrak operations resulting from OIG work. The
second priority area speaks to the core business of OIG (e.g., audits, evaluations, investigations),
while the third priority area builds on this work--demonstrating actual improvements to Amtrak
operations.
             Table 2. OIG Top 3 Oversight Priorities: Current and “Should Be”
                                 Current Priority                  “Should be” Priority

   First Priority                  Recovery Act                       Recovery Act
   Second Priority                  Don’t know               Waste/internal controls/efficiency
   Third Priority                   Don’t know               Improvements to operations from
                                                                    OIG work (impact)



                                                C-4
                                                                                     Appendix C



Independence. Participants were asked how well the OIG maintains its independence from the
Company, the programs it reviews, and external stakeholders. Overall the results suggest that the
staff do not feel strongly that the Amtrak OIG is independent. Most respondents indicated the
Amtrak OIG is “somewhat independent” (61%, n=46). About one fifth (22%, n=17) indicated it
is “extremely independent”; a smaller number (8%, n=6) think it is “not at all independent,” and
a similar number “don’t know” (9%, n=7).

In an open-ended format, respondents were asked to provide suggestions to improve the
independence of the OIG. A total of 59 comments were offered, but not all were responsive to
the question. Of those that offered suggestions, the following themes emerged:

   • Hold to a position without the influence of Amtrak management, and initiate our own work
     (17% n=10)
   • Have the IG report to Congress, not the Board of Directors (12%, n=7)
   • Maintain open access to Amtrak records (10%, n=6)
   • Reference the IG Act often, reinforce its message and educate both OIG and Amtrak staff
     on what it means (8%, n=5)
   • Hold management accountable for implementing OIG recommendations (7%, n=4)

Example comments include:

   •   We should take the initiative in conducting audits, reviews, and investigations and not
       wait for endorsement by the Board.
   •   A culture change of the OIG staff as to exactly what independence entitles them to. Now
       staff just announce they are OIG and expect things to be done
   •   Behaving as if we are half federal and half Amtrak only hurts our creditability and allows
       for Amtrak to influence our views, which is not good for the OIG or Amtrak
   •   The OIG needs to ensure there is transparency with our reports and responses by the
       company.

WORKING IN THE OIG
Personal. Generally, respondents are comfortable with their understanding of the organizational
structure (83% agree/strongly agree) and where they fit in that structure (74% agree/strongly
agree) (see Table 3 below).

Respondents also believe that they understand how their work relates to the goals and priorities
of their positions (76% agree/strongly agree). This compares favorably to a somewhat similar
question posed in the 2008 Federal Human Capital Survey conducted by OPM (i.e., managers
communicate the goals and priorities of the organization); the result is better than that achieved
by the Federal government as a whole (60% positive).

Most respondents also believe that their performance appraisal is a fair reflection of their
performance (67% agree/strongly agree). This result is similar to the results of the 2008 OPM
survey, where 63% of all Federal employee respondents said that their performance appraisal is a


                                               C-5
                                                                                    Appendix C

fair reflection of their performance. The majority of OIG respondents also indicated that they
feel motivated to do their best work (64% agree/strongly agree). Similarly, most respondents
were satisfied with the opportunities they have been given for training and professional
development (68% agree/strongly agree).

While most respondents said their workload is reasonable (73% agree/strongly agree). The OIG
composite results are more favorable than the results of the 2008 OPM survey where 60% of all
Federal employees said their workload is reasonable.

The most consistently negative responses were related to communication. Fewer than half of the
respondents believe they receive adequate and timely information from OIG leaders on issues
that affect them personally (43%, n=32). Similarly, less than half are (41%, n=31) satisfied with
the information they receive about what’s going on in the organization.

                          Table 3: Assessment of Own Work Situation
                                                                                       Rating*
                                                              %                       Average
                                                                      % Strongly
                                                           Strongly                 (1=Strongly
        Assessment of Own Work Situation                              Disagree or
                                                           Agree or                    Agree/
                                                                       Disagree
                                                            Agree                    5=Strongly
                                                                                      Disagree)
I know how my work relates to the OIG's goals and
                                                             76%          6%            2.09
priorities.
I know where I fit within the current organizational
                                                             74%         14%            2.13
structure.
I understand the goals and expectations for my position.     76%          9%            2.03
My performance appraisal is a fair reflection of my
                                                             67%          8%            2.58
performance.
I am given adequate opportunities for training and
                                                             68%         16%            2.23
professional development.
I feel motivated and inspired to do my best work.            64%         18%            2.24
I understand the current organizational structure and
                                                             83%          7%            1.95
reporting relationships.
My workload is reasonable.                                   73%         13%            2.32
I receive adequate and timely information from OIG
                                                             43%         30%            2.88
leaders on issues that affect me personally.
I am satisfied with the information I receive from
                                                             41%         44%            3.32
OIG leaders on what's going on in the organization.
*Lower average ratings indicate more favorable responses

IN MY GROUP

Immediate Office. On the whole, respondents think highly of the commitment (75% positive)
and experience (66% positive) of the people in their immediate office/work group (see Table 4
below). They also generally believe (86% agree/strongly agree, n=65) that their colleagues are
willing to learn and use automated tools to do their job.




                                                 C-6
                                                                                               Appendix C

A majority (62%, n=60) are positive about the ability/willingness of their colleagues to adapt to
changing priorities, new approaches to work (79%, n=65), or changes in organizational structure
and reporting relationships (54%, n=41).

Over one-third (42%, n=32) have a negative impression of the morale in the office, and only
about one third (37%, n=28) believe that staffing levels are adequate.

                              Table 4: Assessment of Immediate Office
                                                                                                 Rating*
                                                                                                Average
                                                               % Strongly       % Strongly
                                                                                              (1=Strongly
          Assessment of Immediate Office                        Agree or        Disagree or
                                                                                                 Agree/
                                                                 Agree           Disagree
                                                                                               5=Strongly
                                                                                                Disagree)
Staff members are willing to learn and use automated
                                                                    86%             9%           2.01
tools to do their jobs.
Staff members are highly committed to the mission of
                                                                    75%             5%           2.16
the OIG.
Staff members have the right backgrounds and
                                                                    66%            17%           2.31
experience to do their jobs.
Staff members are willing to adopt new approaches to
                                                                    79%             9%           2.12
the work.
Staff members adapt easily to changing priorities.                  62%            18%           2.45
Staff members adapt easily to changes in
                                                                    54%            21%            2.7
organizational structure and reporting relationships.
The office has the right mix of skills for the work that
                                                                    59%            25%           2.63
needs to be done.
Morale is high among the staff members in my
                                                                    37%            42%           3.14
office/division/work group.
The number of staff is adequate.                                    37%            37%           3.03
    * Scale ranged from 1=more favorable ratings to 5=least favorable ratings

MY IMMEDIATE MANAGER/SUPERVISOR

Direct Manager/Supervisor. When asked questions about their own manager/supervisor,
respondents report generally favorable views, and there was little variability in ratings (see Table
5 below). More than two-thirds have a positive view of their manager/supervisor’s willingness
to adopt new approaches to work (88%, n=65), ability to work with people of different
backgrounds (84%, n=62), and independence from outside stakeholders (80%, n=60). All three
issues drew very little in terms of negative views (5% to 8%). On the question of whether
managers/supervisors work well with employees of different backgrounds, the OIG results (84%
strongly agree/agree) compare very favorably to the 2008 OPM Federal Human Capital Survey
results for government as a whole (65% strongly agree/agree).

Over half of the respondents have favorable opinions about their own manager’s guidance to
staff (76%, n=56), communications about the goals and priorities of the OIG (73%, n=54), and
ability to adapt to changing priorities (74%, n=55). With regard to managers communication of
the goals and priorities of the organization, the 2008 OPM survey results for the federal


                                                      C-7
                                                                                              Appendix C

government overall (60% strongly agree/agree) were slightly lower than the OIG results in this
survey (73%).

Respondents also have a generally positive view of their own manager’s ability to see the “big
picture” across audits, investigations and evaluations (73%, n=54), as well as their understanding
of the full range of programs across Amtrak (73%, n=54). Similarly a substantial number of
respondents (73%, n=54) believe that their manager/supervisor adapts easily to changes in
organizational structure and reporting relationships.

                        Table 5: Assessment of Direct Manager/Supervisor
                                                                                          Rating Average
                                                                            % Strongly     (1=Strongly
            Assessment of Direct                       % Strongly
                                                                            Disagree or       Agree/
            Manager/Supervisor                        Agree or Agree
                                                                             Disagree       5=Strongly
                                                                                             Disagree)
My manager/supervisor treats me with respect                 88%                8%              1.68
My manager/supervisor works well with
                                                             84%                8%             1.87
employees of different backgrounds.
My manager/supervisor is willing to adopt new
                                                             88%                5%             1.95
approaches to the work.
My manager/supervisor demonstrates
                                                             80%                5%             1.95
independence from outside stakeholders.
My manager/supervisor provides appropriate
                                                             76%                9%             2.03
guidance and direction for my work.
My manager/supervisor models good
                                                             76%                12%            2.03
teamwork for the staff.
My manager/supervisor adapts well to
                                                             74%                10%            2.09
changing priorities.
My manager/supervisor communicates the
                                                             73%                12%            2.05
goals and priorities of the OIG.
My manager/supervisor has a good
understanding of the full range of programs                  73%                15%            2.09
across Amtrak.
My manager/supervisor is good at seeing the
“big picture” across the various audits,
                                                             73%                15%            2.07
investigations and evaluations done by the
OIG.
My manager/supervisor adapts easily to
changes in organizational structure and                      73%                12%            2.20
reporting relationships within the OIG.
    * Scale ranged from 1=more favorable ratings to 5=least favorable ratings

A total of 24 comments were offered about first line supervisors, with most falling into one of
three general themes:

    • Complimentary statements, such as they provide good direction, “the reason I stayed,” and
      praise for specific individuals;
    • Complaints about their inexperience with Amtrak or lack of knowledge, noting their need
      for more advanced technical skills and knowledge of the railroad; and


                                                       C-8
                                                                                   Appendix C


   • Comments about the lack of communication, either from the supervisor, or lack of
     communication among supervisors.

Example comments about this last bullet point include:
   • They should speak with each other
   • Managers lack basic managerial skills and are not held accountable for managing staff.
      Many have solid technical skills but have no idea how to engage and motivate staff;
      instead, they prefer to micromanage.

THE OIG EXECUTIVE TEAM

Executive Team. Respondents expressed less favorable average ratings for the Executive team
overall compared to ratings of their immediate supervisors, and there was more variability
among the ratings (see Table 6 below). In general, respondents expressed increased levels of
ambiguity offering more “neither agree or disagree” and “don’t know” responses. The highest
rated attributes were the senior staff’s ability to work with employees of different backgrounds
(54%, n=40), demonstration of the guiding principles and values of the OIG (51%, n=38), their
willingness to adopt new approaches to the work of the OIG (50% n=37), and their ability to
communicate the goals and priorities of the OIG (49%, n=36). Fewer than half of the
respondents provided positive ratings to the remaining items pertaining to Executive Team
behavior.

Most of the 26 comments offered about the Executive team pertained to their lack of knowledge
of Amtrak, lack of unity and support for changes within OIG, and poor communication. Of
primary concern is the need for newer members of the Executive team to learn more about
Amtrak and develop clear direction for the office. Other examples noted that the Executive team
is “divided” and that some prefer the status quo, and some will resist the new leadership.
Examples of communication concerns mentioned that the Executive team is “overly secretive” or
sets a “poor example of communication,” which results in the prevalence of rumors about
pending changes and the direction of the office.

Example comments include:
   • The Executive team is new and most of these questions can’t be answered fairly because
      of that, however, we still seem to be operating in a secret atmosphere with little
      interaction with the company.
   • The OIG Executive team is much improved but still divided. Despite new blood some old
      issues continue to cloud OIG management
   • Most of what we hear are rumors and not facts from Executive management.
   • Team building at all levels is key to its success.




                                              C-9
                                                                                                    Appendix C


                               Table 6: Assessment of Executive Team
                                                                                                     Rating
                                                                                                    Average
                                                             % Strongly        % Strongly
                                                                                                  (1=Strongly
            Assessment of Senior Staff                        Agree or         Disagree or
                                                                                                     Agree/
                                                               Agree            Disagree
                                                                                                   5=Strongly
                                                                                                    Disagree)
 The Executive team works well with employees of
                                                                 54%               13%               2.91
 different backgrounds.
 The Executive team demonstrates the guiding
                                                                 51%               18%               2.70
 principles and values of the OIG.
 The Executive team is willing to adopt new
                                                                 50%               14%               3.09
 approaches to the work of the OIG.
 The Executive team effectively communicates the
                                                                 49%               24%               2.73
 goals and priorities of the OIG.
 The Executive team provides appropriate guidance
                                                                 45%               29%               2.73
 and direction to the work of the OIG.
 The Executive team demonstrates independence
                                                                 45%               23%               3.16
 from outside stakeholders.
 The Executive team is good at seeing the “big
 picture” across on the various audits, investigations           39%               19%               3.16
 and evaluations done by the OIG.
 The Executive team adapts easily to changes in
                                                                 39%               16%               3.41
 organizational structure and reporting relationships.
 The Executive team adapts well to changing
                                                                 36%               13%               3.49
 priorities.
 The Executive team has a good understanding of
                                                                 35%               33%               3.44
 the full range of programs across Amtrak.
 The Executive team models good teamwork for the
                                                                 35%               27%               3.28
 staff.
                      * Scale ranged from 1=more favorable ratings to 5=least favorable ratings

WORK PROCESSES AND SYSTEMS

The ratings for work processes and systems were highly variable, and many items about specific
tools or training were relevant only to certain segments of the OIG population (see Table 7
below).

Communication Methods. Opinion about the communications methods available and used by
the OIG were almost evenly split among those who thought they were “good” or “very good”
(32%, n=24), those who said they were “satisfactory” (37%, n=27), and those who said they
were “poor” or “very poor” (31%, n=23).

Training and Guidance. Similarly, ratings of training on OIG work processes, systems and
tools were split three-ways. About the same number of respondents gave “good” and “poor”
ratings (33%, n=24 for each category), about one-third were “satisfied” (33%, n=24), and about
one quarter (27%, n=20) said it was “poor,” or “very poor” (the remainder selected “don’t
know”).



                                                     C-10
                                                                                                   Appendix C

Quality Assurance. Most respondents who rated this item indicated that the quality assurance
review process was satisfactory (31%) or better (26%). About one-quarter of those who rated
this item (23%) said it was poor or very poor. However, a review of comments/suggestions for
improving the efficiency of the office suggests that there is significant staff concern about the
need for technical guidelines and process improvements, and specific improvements to the
efficiency of the report review process (see “Improvements to Work Processes”, below).

Use of Cross-Functional Teams. Few respondents think the use of cross-functional teams is
satisfactory (20%) or good/very good (12%). Over one-third (38%) think that the use of multi-
discipline/cross-functional teams is poor or very poor, nearly one quarter (23%) indicated they
“don’t know” and could not rate the item.

                       Table 7: Assessment of Work Processes and Systems
                                                                                                    Rating
                                                                                                   Average
                                                   % Very                             % Very
 Assessment of Work Processes and                                      %                           (1=Very
                                                   Good or                            Poor or
             Systems                                              Satisfactory                      Good/
                                                    Good                               Poor
                                                                                                    5=Very
                                                                                                     Poor)
 Technical guidance on how to conduct
                                                    62%               19%               19%          2.31
 evaluations (16 rated this)
 Technical guidance on how to conduct
                                                    42%               22%               38%          2.87
 audits (total of 45 rated this)
 Technical guidance on how to conduct
                                                    41%               32%               27%          2.79
 investigations (34 rated this)
 Training on the OIG’s work processes,
                                                    33%               33%               27%          3.10
 systems and tools
 Internal communication methods (e.g.,
                                                    32%               37%               31%           3.0
 all-hands meetings, email)
 Guidance and training provided on AIM
                                                    32%               34%               34%          3.05
 (41 rated this item)
 Guidance and training provided on
                                                    28%               35%               37%          3.04
 TeamMate (46 rate this item)
 Quality assurance review processes (59
                                                    26%               31%               23%          2.95
 rated this item)
 Guidance offered on records
 management (e.g., folder structures, file          23%               28%               34%          3.61
 naming conventions, archiving rules)
 Use of multi-discipline (cross-functional)
                                                    12%               20%               38%          3.48
 teams (52 rated this)
 Use of teams within a functional group,
 but from different work locations (52              17%               29%               54%          3.21
 rated this item)
                       * Scale ranged from 1=more favorable ratings to 5=least favorable ratings

Improvements to Work Processes. When asked to identify one or two process improvements
that should be made to improve the timeliness or quality of OIG work products, 56 respondents
offered at least one suggestion. Not all answers given to this item were responsive, but of those
that were, some themes emerged. Most frequently suggested (29%, n=16 respondents) were the



                                                      C-11
                                                                                     Appendix C

need for technical guidance and standardized, transparent work processes around audit
completion and report preparation. A specific work process that garnered twelve comments
suggested the OIG improve the efficiency of its report preparation process (21%, n=12),
including both the review process itself (e.g., number and levels of review) and setting standard
formats for different types of work.

Training emerged as another theme, with 23% (n=13) of the comments noting there is a need for
specific technical training on TeamMate, Amtrak Investigations Management System (AIMS),
and overall accounting standards and guidelines.

Communication practices comprised another set of suggestions (9%, n=5), with people
describing both mechanisms (i.e., the need for more all-hands meetings), as well as content (i.e.,
sharing expectations to enhance accountability) (9%, n=5).

Example comments include:
   • Report writing standards and mandatory compliance with those standards from all OIG
      staff regardless of the work unit. Development and implementation of a fact-based risk
      assessment tool to determine what value-added work really needs to be done.
   • Often, what’s being reported is outdated by the time the review process has been
      completed.
   • More communication across functional areas and between senior OIG management and
      employees is needed. Change is often painful but not having a sense of what is taking
      place is the most painful.
   • The staff needs to be provided with clear, concise direction. Lately, processes have been
      changing and re-changing weekly, daily, etc. which is causing confusion and further
      moral issues with the staff. There are a lot of hard working people who want to “do the
      job” but they need to understand what is expected of them and consistency.

STRENGTHS OF OIG

Strengths. Respondents were asked what they considered to be the core strengths of the Office
of the Inspector General. Of the 75 people who answered this question, the most frequently
mentioned strength was the OIG employees (50 respondents, or 66%). Among the qualities cited
were their:
    • Knowledge of Amtrak
    • Experience;
    • Credibility (particularly in Investigations)
    • Teamwork; and
    • Dedication.

The next most frequently mentioned strength (9 respondents, or 12%) was the mission of the IG
itself and the independence of the office. A handful of respondents named the new leadership
and the changes made to date as a core strength (4%, n=3). No other themes emerged as core
strengths.




                                              C-12
                                                                                   Appendix C

Issues, Trends, and Challenges. Respondents were asked to identify major issues, trends, and
challenges that will have the biggest impact on OIG in the future. A total of 65 responses were
offered, though not all reflected valid responses to the question posed. A total of 40 valid
responses grouped into two main types of trends or challenges: 1) internal (affecting OIG
operations) and 2) external (those that extend beyond the OIG internal functioning).




                                             C-13
                                                                                       Appendix C


             Table 8: Staff responses on major issues, trends, and challenges for OIG

                                                                      Number of
                                                                     Respondents
                          Challenges                                   Listing       Percentage of Total
                                                                      Challenge         Respondents
Internal Challenges
Human Capital – pending retirements and succession planning               19                29%
Reinforcing OIG independence and disengaging from Amtrak
management                                                                 9                14%
Automated tools                                                            3                5%
External Challenges
Need for high impact audits/investigations based on risk to
Amtrak operations                                                          7                11%
Recovery Act                                                               5                8%


   The remaining comments did not reflect a theme or broad issue, but were ideas not shared by
   more than two individuals, such as:
      • Amtrak IT investment;
      • Employee theft;
      • Cross-functional teams; and
      • Yellow Book standards and International Professional Practices Framework (IPFF).

   PLANNING FOR OIG’S FUTURE

   When asked about how prepared the OIG is to effectively address its future challenges, the most
   frequent response was “somewhat prepared” (41%, n=30). Most respondents expressed at least
   this level of confidence or greater in the OIG capability to handle the future. The red and green
   sections of the chart below indicate that a quarter of the OIG respondents who said that office
   was “unprepared” or “very unprepared” to handle future challenges.




                                                 C-14
                                                                                  Appendix C




MEASURING OIG OUTCOMES

Performance Measures. Respondents were asked what measures should be used to evaluate the
success of OIG as an organization; 60 respondents offered suggestions. The responses were a
mix of traditional OIG measures (e.g., number of recommendations, funds put to better use),
outcomes (or impacts) affecting Amtrak performance, and process improvement measures.

The most frequent suggestions (13%, n=8) were measures of how well OIG findings were
impacting the occurrence of waste/fraud/abuse/mismanagement within Amtrak, with many tying
OIG outcomes to measures from Amtrak programs (e.g., hiring cost per employee, loss of food
and beverage operations). These kinds of measures move beyond outputs (e.g., number of
recommendations) to long-term impact of implementing the recommendations. Another
important suggestion was to survey OIG stakeholders—specifically the auditees and users of
OIG reports—to assess both the process and the value of the product. Responses were given by
only one or two participants and include:

   • Prevention measures, such as deterrence of fraud, money saved through deterrence;
   • How strongly OIG recommendations support Amtrak strategic goals; and
   • How well the OIG meets its own strategic goals.


                                            C-15
                                                                                        Appendix C


CLOSING COMMENTS

The final section of the survey gave respondents the opportunity to comment on or mention
anything else that they would like to share. A total of 32 people submitted a response (in some
cases just noting “nothing”). Of those that offered substantive comments, the most frequent
responses (38%, n=12) noted problems with the OIG culture, climate and morale. OIG is
described as “dysfunctional,” with too much “division” within the office (sometimes indicating
specific groups that are a source of discord), overall low morale.

Other themes that emerged include the need to be honest with employees when making
promises, sharing plans for reorganization, etc., noting that many employees have low trust of
the OIG leadership and are fearful of job loss (18%, n=6). The need was expressed for better
communication channels and practices (13%, n=4), and the need to recognize the uniqueness of
Amtrak’s business and organization, rather than trying to replicate a standard Federal OIG model
(13%, n=4). Others “look forward to the changes” planned by the new IG (13%, n=4).

Other less frequent comments (expressed by 3 or fewer individuals) included:

   • Restructure the salary and recognition system, adopt more meaningful titles;
   • The perception that the new IG is trying to get rid of older employees;
   • Better align resources within the office, including physically co-locate staff to foster better
     teamwork and collaboration;
   • Start a mentoring initiative; and
   • Criticisms of the NAPA study, noting the numerous previous assessments of the office and
     skepticism that positive change will result.

SUMMARY

The OIG staff is well represented by this survey, with a strong majority of the OIG workforce
offering their views. Overall, staff indicate that they personally understand and support the
strategic plan, yet note that questions remain about the details of how it will be implemented.
Most understand their current role and responsibilities, and a strong majority thinks that ARRA
is and should be the top oversight priority in the OIG. They were less certain about the other
current priorities of the work (“don’t know” were the top responses). They were clear, however,
in identifying what should be the oversight priorities—detecting waste/fraud/internal controls,
and improving Amtrak operations (having an impact). These responses suggest that staff know
what the work of the OIG should be doing, but that they are less sure that the OIG is actually
doing it to the degree needed or appropriate.

Organizationally, most agree that Audit and Investigations are and should be the top two
functional emphases within the office, but there are varied opinions about the third most
emphasized function. At present, most indicate that M&P is getting high emphasis, but that
Inspections & Evaluations should actually be more prominent. This finding, taken together with
the findings related to the top oversight priorities noted above, suggest that internal issues within
the OIG are taking attention away from the OIG’s core business.



                                               C-16
                                                                                       Appendix C

Amtrak OIG is not viewed as a strongly independent office by the staff, and suggestions were
offered to both educate others and behave in ways to reinforce its independence. Staff members
were favorable in their views of their immediate supervisors, but less favorable in ratings of the
Executive team. Motivation and morale were somewhat low, and ratings of all items relating to
work processes and systems were fairly low (fewer than half of the responses were favorable).
Many note problems with training, communication, use of cross-functional teams, overall
approach and planning of the work. These results are consistent with findings across multiple
interviews (including the OIG Executive team, other OIG interviewees, and stakeholders). While
problems in day-to-day processes are evident, respondents were generally positive about the
willingness of staff and managers to adopt changes and learn new processes.

Staff indicated that the core strength of the office is its people, mentioning the specific
knowledge and skill sets many possess. While this is cited as a strength, other items in the survey
also indicate that knowledge and skill is not universally present across the OIG, and that many
staff (and managers) would benefit from increased training. Comments throughout the survey
indicated a concern about the high number of retirement eligible staff members, and few felt the
office is well prepared to meet its pending challenges around human capital management. The
threat of substantial attrition in key areas, along with the inconsistent distribution of expertise
across the office, further emphasizes the need for succession planning, including an approach for
hiring, training and developing more junior staff.

Suggestions for measuring OIG performance were a mix of traditional measures (e.g., number of
recommendations, funds put to better use), as well as process improvement and actual indicators
of impact. Some described linkages between actions by the OIG (fraud awareness, deterrence,
process improvements) and actual savings, suggesting they do see the ultimate, long-term benefit
of OIG work to Amtrak and the taxpayer. This suggests that they recognize the value of the OIG
work in broader terms.

Overall, the survey results support many of the findings from the internal and stakeholder
interviews, particularly around the need for improved approaches to conducting the work. The
survey results further suggest that OIG attention is currently focused on internal management
issues (though not necessarily those that pose a significant risk, i.e., succession planning), which
may be detracting from its ability to fully support its mission.




                                               C-17
                                                                              Appendix D


                                 Appendix D
                         Benchmarking with Other OIGs

INTRODUCTION

As part of the organizational assessment conducted for the Amtrak OIG, the National
Academy study team conducted a benchmarking effort that identified leading practices
within the OIG community. This effort involved a review of available documents and
publications from and about the IG community, as well as interviews with 11 senior staff
at five high-performing OIGs.

The five OIGs interviewed included:

    •   Department of Commerce (DoC), 4 interviewees;
    •   Department of Justice (DoJ), 2 interviewees;
    •   Tennessee Valley Authority (TVA), 2 interviewees;
    •   Department of Energy (DoE), 2 interviewees; and
    •   Securities Exchange Commission (SEC), 1 interviewee

Areas of Interest to Amtrak OIG

The study team, Academy Panel, and Amtrak OIG leadership identified the following
areas to explore in the benchmark interviews:

   •    Prioritization of OIG Work
   •    Internal and External Communication
   •    Quality Work Processes
   •    Policy Development and Updates
   •    Processes Guiding Cross-Functional Teams
   •    Human Capital Management
   •    OIG Independence
   •    Performance Measurement

SUMMARY OF BENCHMARKING INTERVIEWS

Each interview touched on many, but not necessarily all of the eight topic areas. The key
findings, in terms of their current practices in each area, are synthesized across the
interviews and highlighted below.

Prioritization of OIG Work

All of the OIGs engage in some type of annual process to identify the strategic issues that
will frame the work of the office for the coming year. The OIGs vary, however, in the
level of rigor that guides their process.




                                         D-1
                                                                                           Appendix D

Shared Practices

Almost every benchmarked OIG highlighted the importance of strategic planning and
annual planning for an organization. Interviewees shared their experiences in developing
strategic plans and annual plans.

•   A majority of the OIGs developed an overarching multi-year strategic plan that
    considers current and emerging agency programs, risks, and management
    challenges. 1 They also developed an annual or periodic OIG work plan (sometimes
    referred to as an “audit plan,” though a work plan covers more than audits) that
    identified and prioritized agency programs that would be subject to audit,
    investigation, inspection/ evaluation in the coming year.
•   Typical components of an OIG annual planning process included:
      o A top-down/bottom-up planning approach in which the IG and senior leaders set
          the strategic direction of the type of work they would like to see performed the
          coming year; multiple levels of OIG staff then made suggestions about
          perceived areas of risk, and provided details and context about those areas
      o A thorough scan of the external environment through discussions with
          agency/department heads, board of directors, Congress, and others. This scan
          ensured that the OIG was focused on the issues that mattered to their
          stakeholders and the public. Of note is that the IG collected different
          perspectives, yet maintained the final decision making authority.
      o Risk assessments and established prioritization/ranking criteria to prioritize
          critical risk areas
      o An annual review/update of strategic plans, to incorporate unexpected, timely
          issues
•   OIGs highlighted the importance of focusing on issues with high-level, strategic
    impacts.
•   Some benchmarked OIGs found it important to coordinate their work internally and
    externally with other groups performing independent evaluations to avoid conflicts or
    overlaps.
•   OIGs noted that, once the annual planning is complete, it was important to engage in
    continuous, candid dialogue with stakeholders throughout the year to discuss on-
    going areas of perceived risk, share interim findings, and to maintain cooperative
    relationships with stakeholders.

Specific Examples

•   One benchmarked OIG followed a rigorous planning process with multiple levels of
    staff engagement and management review. Staff described it as a “top-down/bottom-
    up” process: the IG gathered information on high-level risks and priorities from a
    number of sources, including the Department Secretary, Congressional stakeholders,
    other oversight organizations and agencies (e.g., NRC, EPA), as well as internal OIG
1
 Some noted they prepare a “strategic plan” for the OIG, but the interviews focused primarily on how the
actual work is planned and prioritized, and did not address internal OIG improvements that would be
captured in a strategic plan.


                                                D-2
                                                                            Appendix D

    sources; senior leadership then gave overall requirements and strategic direction to
    the entire OIG, while field staff developed specific details regarding risks.
•   One benchmarked OIG worked with a Chief Risk Officer at their agency because
    safety and risk mitigation was such a critical, organization-wide issue; the agency
    performed its own Enterprise Risk Assessment which is considered in conjunction
    with the OIG’s risk assessments and strategic planning. The OIG ranked and
    prioritized all areas of risk identified by both the agency and the OIG according to
    three factors: materiality, impact operations, and public sensitivity.
•   One benchmarked OIG encouraged all staff to submit work suggestions to their
    supervisor throughout the year. Each year, all audit managers (approximately 25)
    from seven field offices were invited to HQ to meet with senior leadership and to
    review and prioritize all the suggestions for the audit plan. The field office whose
    suggestions made the final prioritization were commended.

Internal Communication

When asked about internal communication practices, interviewees provided a wide range
of responses.

Shared Practices

Internal Communications
Benchmarked OIGs discussed their experiences in developing consistent and productive
internal communications.

    • Almost all interviewed OIGs had strong IG visibility, and IGs who developed
      cultures that expected senior staff to be visible, to engage with staff at multiple
      levels, to recognize staff achievements, and to show appreciation for good work.
    • Almost every interviewee highlighted the importance of holding frequent, regular
      meetings within the organization, including:
        o Weekly senior team meetings of the IG and the Deputy/AIGs so that all
           functional leaders are apprised of ongoing work and issues across the
           organization;
        o Weekly or frequent meetings of each AIG and his/her staff to discuss status
           and emerging issues;
        o Periodic meetings (a few times a year) of high-level/mid-level managers from
           across the OIG, often bringing them in from field locations, to conduct
           planning and share lessons learned; and
        o Periodic (quarterly or semiannually) all-hands meetings (weekly in some
           small OIGs).
    • In addition to the above scheduled meetings, IGs and senior leaders also had
      regular, informal gatherings with staff members
    • An OIG-specific intranet was used to “push” information out to the staff, such as
         - Messages from the IG; and
         - Reference material, including OIG guidance, policies, forms, links, and
              other real-time accessible resources.


                                        D-3
                                                                             Appendix D


   • Some OIGs published internal newsletters on a regular basis.

Specific Examples

   • One benchmarked OIG offered two-way communication with the staff through an
     IG’s blog on their intranet, and planed to also have AIGs blog according to their
     specific functional areas.
   • One benchmarked OIG hosted weekly video teleconferences with approximately
     ten different employees from different units. This forum provided an opportunity
     for people to get to know each other, learn about other’s work, and form stronger
     connections within the organization.
   • All employees a benchmarked OIG had access to the current projects, reports, and
     status of any audit or investigation. Status reports were openly shared and discussed
     to foster greater transparency and communication within the organization.
     Employee inputs from all levels were valued, and policy changes were proposed by
     all levels.
   • The intranet at a benchmarked OIG was used at least weekly by most staff and
     served as a communication mechanism and a performance support tool, offering
     newsletters from the IG, guidance, forms, and links.
   • One benchmarked OIG created a system of weekly reporting sharing employee
     promotions, status of new and available work and positions, new hires, as well as
     personal celebrations (e.g., birthdays, marriages, and births).
   • One benchmarked OIG met with each division/group head every week to discuss
     progress of open cases and to review a multi-colored spreadsheet to visually
     illustrate progress with audits and work streams.

External Communication

Shared Practices
Interviewees stressed the need to maintain effective communications with stakeholders to
increase transparency, to improve relationships and credibility with stakeholders, and to
maintain OIG independence.

   • Many benchmarked OIGs stressed the importance of launching educational
     outreach to stakeholders to clarify the role and responsibility of the OIG.
   • A majority of benchmarked OIGs noted that open lines of communication between
     the IG and Department/agency leadership are crucial, and that the IG engaged with
     leadership regularly to discuss emerging or potential issues that may warrant IG
     involvement.
   • External lines of communication were maintained with Congressional staffers by
     the IG, the Deputy, and other senior level executives. Some OIGs have a dedicated
     Congressional liaison, while others assign that responsibility to a member of the
     senior team. Regardless of the structure, the OIGs all share a common practice of
     ongoing, frequent engagement with Hill staff.
   • OIGs responded to all Congressional requests in a timely fashion.



                                        D-4
                                                                              Appendix D

Specific Examples

   • One benchmarked OIG worked hard to develop candid and productive working
     relationships with key Senate and Congressional Staff and feels comfortable
     reaching out to them with requests for assistance on challenging issues.
   • One benchmarked OIG publically posted its reports on the web concurrently with
     delivery to Congress, and reached out to Congressional stakeholders upon the
     release of each report with an offer to brief them. This engaged OIG staff and kept
     the Hill informed.
   • In addition to presenting at board meetings, one benchmarked OIG also distributed
     a written outstanding issues report quarterly to its Board and the agency senior
     management, so that each group knew what the other knew


Quality Work Processes
All interviewees noted that the OIG needs to follow consistent, commonly accepted work
processes, and that OIG work products should be accessible to staff within the entire
office and adhere to quality standards.

Shared Practices

   • Many OIGs developed and updated an operations manual that specified work
     practices within the office and followed professional standards (e.g., adhere to the
     Yellow Book standards). The operational manual was made available to all staff
     through the OIG intranet.
   • The IG firmly communicated the expectation that the office will follow the Yellow
     Book (or other applicable guidance), and that all staff are expected to adhere to that
     direction.
   • Quality assurance was built into the work processes, including check lists, criteria
     for ensuring adherence to the guidance, and different levels of review and
     signatures (supervisory and team leader review, legal review, and IG review).
   • Management tools were widely used in benchmarked OIGs to track work status; all
     work was saved on an OIG-specific shared system (i.e., the system is separate from
     the Department, but accessible to all OIG staff).

Specific Examples

   • One benchmarked OIG undertook a major revision of its standard operating
     procedures during a time of organizational change. It tasked each field office to
     write a specific chapter of the manual with each chapter focused on a specific task
     or topic. The AIG then compiled the chapters and conducted a master edit before
     signing off and distributing the guidance. The engagement of all staff in the
     development of internal procedural guidance increased support for and
     understanding of the procedures across the OIG.
   • One benchmarked OIG uses ProLaw to measure time reporting and milestones.



                                         D-5
                                                                             Appendix D


Policy Development and Updates
All interviewees noted that OIGs need to establish structured, consistent, and current
internal policies/guidance across the organization.

Shared Practices

   • Policy development typically occurred within the functional areas, with authority
     for policy updates residing with either the AIG for that area, or the Deputy IG.
     Ultimately all official policy is signed off by the IG.
   • To ensure that internal policies remain current, interviewees emphasized the need
     to actively monitor information from CIGIE, OMB, GAO, and other external
     sources for possible impacts on OIG work (e.g., updates to the Yellow Book,
     relevant government-wide policy changes or legislation, etc.)
   • Some OIGs engaged in a vetting process within functional areas and distributed
     draft policy for comments.
   • Many of the larger OIGs maintained an administrative group that plays a role in
     policy development, though none described this function as playing a key role in
     the process or as having final authority. Development of content resided within the
     functional areas to draw on the expertise of the staff.
   • Almost all interviewees noted that their policies, forms, links, and other relevant
     work guidance are made available on their intranets.

Specific Examples

   • One benchmarked OIG maintained a top-down/bottom-up process for policy
     development and updates. The AIG drafted an update or potential change to work
     process, and then distributed the draft to the field offices for detailed review and
     comment. This review focused on refining the details of the policy and noting any
     concerns or challenges. Comments were then collected by the AIG, who drafted
     and issued the final policy updates. Final policies were distributed formally with a
     signed instruction from the AIG to update the existing policy manual.
   • The AIGs within one benchmarked OIG initiated the process of developing internal
     process for their staffs. Counsel has taken the role of reviewer and compiler of all
     policies (a task assignment from their recent strategic planning effort, and not an
     inherent or routine role for Counsel). The IG ultimately reviewed and signed off on
     all policies.

OIG Independence

All interviewees noted that independence of the OIG is central to its ability to carry out
effective oversight.

Shared Practices

   • All OIGs interviewed indicated they had little or no difficulty with maintaining
     their independence.


                                         D-6
                                                                              Appendix D


   • Independence was maintained and enforced through education of stakeholders (e.g.,
     agency leadership, Congress, professional associations, grantees) about the roles
     and responsibilities of the OIG.
   • A majority of interviewees highlighted the importance of maintaining ongoing,
     transparent engagement with Congressional staff and Department/agency
     leadership. The IG engaged stakeholders in discussions on issues of concern, but
     the OIG maintained the final decision-making authorities and did not take direction
     from these stakeholders.
   • OIGs relied on Agencies/Departments for discrete portions of their support
     functions. Most of the larger OIGs maintained separate IT and HR capabilities, and
     used Department resources only to process payroll or maintain master employee
     records. Some benchmarking interviewees suggested that an official contractor
     memorandum of understanding (MOU) should be established between OIG and the
     Department for shared services so that OIG independence would not be
     compromised.
   • OIGs noted that adhering to consistent, quality work processes and standards was a
     good way to maintain OIG independence.

Specific Examples

   • Because it is such a contractor-dependent department, one benchmarked OIG
     conducted extensive outreach with various external organizations, including
     professional associations, about the role of the IG. The outreach was conducted
     primarily by Investigations, but sometimes joint briefings with Inspections and
     Evaluations were offered.

Processes Guiding Cross-Functional Teams
Cross-functional teams were a common practice in benchmarked OIGs to ensure that
appropriate expertise is brought to complex efforts and resources are properly aligned.

Shared Practices

   • Larger OIGs have established standing cross-functional divisions. These divisions
     focused on high-profile or complex issues that require joint efforts of both Audit
     and Investigations, such as issues identified by the Secretary or other high ranking
     officials, politically sensitive issues that have broad impacts or related to national
     security.
   • Smaller OIGs used cross-functional teams on an ad hoc basis to address specific
     time sensitive issues. It was noted that cross-functional teams created without a
     specific project or issue to address were less successful.
   • Many OIGs had a dedicated, cross-functional American Recovery and
     Reinvestment Acct (ARRA) team.

Specific Examples




                                         D-7
                                                                               Appendix D


   • One benchmarked OIG maintained an Oversight and Review Division, which was a
     cross-functional group that oversees sensitive allegations involving employees
     (usually from a high-level request) and conducted systemic reviews of agency
     programs.
   • One benchmarked OIG created teams of auditors and investigators to work on
     specific projects, which had the added benefit of improving internal
     communication, and breaking down functional silos within the OIG.
   • One benchmarked OIG had cross-functional teams for ARRA, (National Oceanic
     and Atmospheric Administration (NOAA) Fisheries and Enforcement work,
     program audits, and contract and grant work.
   • One benchmarked OIG assigned a member of the legal team members to each
     audit. This attorney attended the entrance conference, reviewed the project plans to
     understand the scope and issues related to the audit, and consulted with the team
     lead. They were the legal “point person” throughout the life of that audit.

Human Capital Management

The benchmarked OIGs did not face the same challenges currently faced by Amtrak OIG
in terms of hiring challenges and a potentially large number of pending retirements. Thus,
human capital management was not explored in depth with these interviewees, but the
following findings were distilled from the overall conversations.

One benchmarked OIG has increased its overall staff size in order to bring in fresh new
talent. Another benchmarked OIG experienced a major turnover in staffing within the
office of Investigations in 1995, and the OIG overall does not have either high attrition or
difficulty attracting high quality candidates. Two benchmarked OIGs noted they have
taken advantage of the downturn in the economy over the past two years and are
recruiting staff who might otherwise seek employment in the private sector.

Shared Practices

   •   Some interviewees stressed the importance of recruiting and actively engaging
       new employees. New employees typically became part of official mentoring
       programs, and were given a checklist of first year expectations.
   •   Different retention strategies were established in benchmarked OIGs, including:
       o Robust, ongoing training programs to develop staff professional skills;
       o Assignments that allow “stars” to progress and stretch;
       o Rotation of staff into HQ and field offices to develop institutional knowledge,
            technical skills, and leadership capabilities;
       o Cross-functional teams to expose high performers to new areas;
       o Individual development plans with training requirements and objectives; and
       o Recognizing and rewarding high-performance employees.
   •   Many interviewees stressed the needs of establishing criteria for expected
       performance and utilizing pay-for-performance incentives.
   •   Interviewees discussed the importance of adhering to consistent job titles and
       utilizing standard job descriptions in order to compare staff performance.


                                          D-8
                                                                             Appendix D


    •   In many OIGs, ongoing training was provided to staff members at all levels to
        ensure that staff had the skills to take on high-level work and follow standards.

Specific Examples

    •   One benchmarked OIG hosted an orientation session every 6 months for new
        employees. The IG also met with every new employee individually to forge a
        personal connection.
    •   One benchmarked OIG disseminated 50-60 awards per year (among a staff of
        450) as part of an annual public award ceremony
    •   In one benchmarked OIG, each auditor had an individualized training plan that
        was completed by their supervisor/office head.
    •   One benchmarked OIG had a mentor program within the Investigation group.
        They assigned mentors to new staff (GS-7) and prepared a checklist of 25-40
        items that must be completed within the first year. When an employee reached
        the GS-13 level he or she was encouraged to become a “Relief Agent in Charge,”
        who served as an acting supervisor and received leadership training.
    •   The leadership at one benchmarked OIG reported taking part in new hire
        orientation by introducing his or her functional responsibilities.
    •   One benchmarked OIG assigned mentor/mentee relationships that remain in place
        for three years. Auditors were sent to the IG community for training and have a
        three-year mentoring program.
    •   One benchmarked OIG has found tremendous value in rewarding high-quality
        work with monetary bonuses and extra paid time off.

Performance Management
Only a few of the interviews explored this topic in depth as all IGs interviewed indicated
that effective performance measurement was an area in which they were all currently
trying to improve.
Shared Practices

•   It was agreed that practical and effective performance metrics should include both
    quantitative and qualitative measures.
      o All benchmarked OIGs collected and reported on the statutory measures, such
         as the number of recommendations issued, the number of reports issued, the
         number of Congressional testimonies, the number of indictments and
         convictions.
      o OIGs recognized the need to consider meaningful subjective measures, as
         quantitative measures alone are inadequate indicators of the actual impacts of
         OIG work.
•   Some OIGs solicited feedback from stakeholders on the quality of OIG
    recommendations as an indicator of their performance.

Specific Examples



                                         D-9
                                                                             Appendix D


•   One benchmarked OIG considered feedback from the Department/agency leadership
    as an indication of their performance. They considered fewer requests to testify
    before Congress a positive outcome and an indication of the strength of their reports.
•   The AIG for Investigations within one benchmarked OIG cited several outcome
    measures with quantified goals (e.g., 70% acceptance rate of cases accepted for
    prosecution). These are clearly related to the quality of the processes that guide the
    prioritization and conduct of the work.
•   One benchmarked OIG received considerable stakeholder feedback, and engaged the
    stakeholder before a report was published. Recommendations were reviewed for
    “reasonableness” to ensure they were actionable and more likely to be implemented
•   One benchmarked OIG received considerable stakeholder feedback, and engaged the
    stakeholder before a report was published. Recommendations were reviewed for
    “reasonableness” to ensure they were actionable and more likely to be implemented




                                        D-10
                                                                        Appendix D


                               Benchmark Interviewees


Lisa Allen         Chief of Staff, DOC OIG
Ann Eilers         AIG, Office of Audit and Evaluation, DOC OIG
Glenn Fine         Inspector General, DOJ OIG
Wade Green         Acting Deputy Inspector General/General Counsel, DOC OIG
John Hartman       AIG, Investigations, DOE OIG
Rickey Hass        AIG, Audits, DOE OIG
David Kotz         Inspector General, SEC OIG
Richard Moore      Inspector General, TVA OIG
Cynthia Schnedar   Deputy Inspector General, DOJ OIG
Ben Wagner         Deputy Inspector General, TVA OIG
Todd Zinser        Inspector General, DOC OIG




                                       D-11
                                               Appendix E: Baseline Summary

Current State                         Case for Change                                   Future State

 OIG historically had minimal         New IG and leadership team hail from high-       Has effective internal communication strategies that allow all OIG
  communication between and             performing OIGs; can educate and                  staff to be informed and invested in achieving a high-performance,
  among Executive team and              communicate “what a successful OIG does”          high-accountability organizational mission.
  functional groups                     to Amtrak, OIG employees, and stakeholders       Has constructive relationships with Amtrak and Congressional
 New members of Executive             Culture of fear and anxiety is not healthy or     stakeholders that enable it to gather and share information about
  team have been well received by       sustainable                                       potential areas of risk, while maintaining independence and
  staff, and IG made a good            Many OIG employees express desire to do           transparency.
  number of early wins that won         higher-quality work that they can take pride     Has a work planning and prioritization process that engages
  him credibility with stakeholders     in, and welcome learning about OIG best           stakeholders in identifying and reducing areas of perceived risk,
                                        practices                                         and fully assesses the nature, scope and inherent risks of Amtrak
 Staff waiting to see what
  changes leadership plans to          Investigators’ firearms were revoked;             programs and operations.
  undertake. Staff feel they have       minimally passed CIGIE peer review; lack of      Consistently follows commonly accepted work practices and
                                        clarity about need for Amtrak OIG since DOT       standards both within functional areas and across locations. Work
  received little communication         OIG is viewed as strong….OIG needs to
  about vision & next steps, so                                                           adheres to established quality standards and, as appropriate, is
                                        change lest it be taken over                      accessible and transparent to OIG staff.
  there is fear about anticipated
  change and job security                                                                Has an independent and transparent relationship with its
                                                         CASE FOR                         stakeholders, in accordance with the letter and spirit of the IG Act
 Recognized need by OIG staff                            CHANGE
                                                           ROADMAP
                                                                                          and applicable industry standards. Each stakeholder group has a
  and stakeholders that OIG needs                                     FUTURE
                                               CURRENT                 STATE
                                                                                          clear understanding and a practical, applied definition of what it
  to start doing higher-value work
                                                           BA




                                                STATE                                     means to have transparent interactions with an independent OIG.
                                                             RR




  of impact to Amtrak, and to
                                                               IE




                                                                                         Maintains and applies current, accurate and consistent policy
                                                                 RS




  follow consistent, quality
                                                                                          across the office; has a process to monitor changes in the external
  processes
                                                                                          environment that affect its work practices and a mechanism to
 OIG has had limited
  communication with                  Barriers                                            incorporate those changes into internal policy; and makes all
                                                                                          guidance easily accessible to staff.
  stakeholders. Stakeholders –                                                           Attracts and retrains high-performing employees; has consistent
                                       Culture of limited communication and
  both Amtrak and Hill - feel that      “information/resource hoarding”                   job titles and job descriptions, and has in place training plans and
  historically they have been                                                             performance management plans that link individual performance
  alerted to issues too late           Perception that different OIG staff might
                                        have different agendas; despite vocalized         to OIG objectives.
 Independence of OIG and               support for new OIG direction, all employees     Has performance metrics that reflect the requirements of the IG
  relationship with the Board has       might not be willing to make necessary            Act, meet the expectations of GAO and Congress, reflect the
  been strengthened since IG            changes                                           value of the OIG work to Amtrak; and aligned with OIG strategic
  hire…need to institutionalize        While recognized need to do more strategic        goals. These metrics are integrated into the OIG’s operating and
  processes so no “slippage”            work, anxiety about what this means for job       performance management systems.
                                        security and day to day routines
                                       Many OIG near retirement and may not
                                        welcome changes
                                                                                    Appendix F


                                         Appendix F
                                Crosswalk to Strategic Goal Six

                      STRATEGIC GOAL 6
           LEADING BY EXAMPLE AS A MODEL OIG                               BENCHMARK AREAS
                        ORGANIZATION.
                       (OIG OPERATIONS)
               Deliver timely quality products and services that
Goal 6.1       add value to the Board, management, and the
               Congress.
               Conduct risk assessments of Amtrak programs to           Work Planning and Prioritization
Goal 6.1 a     develop appropriate strategies for investigative or
               audit coverage.
               Prepare a risk-based project plan to determine the       Work Planning and Prioritization
Goal 6.1 b
               priorities of OIG activities.
               Assure that all OIG products address the objective(s),   Work Planning and Prioritization
Goal 6.1 c
               meet the highest quality standards, and are timely.         Quality Work Processes
               Establish and implement a process to track and           Work Planning and Prioritization
               follow-up on OIG findings, recommendations, and             External Communication
Goal 6.1 d
               advice to Amtrak, and Amtrak’s response or
               implementation.
               Update policies and procedures manuals to include all    Work Planning and Prioritization
Goal 6.1 e     applicable professional standards and enhanced              Quality Work Processes
               internal quality assurance programs.
               Respond to inquiries and complaints in a timely and         Quality Work Processes
Goal 6.1 f
               effective manner.                                          External Communications
               Operate a hotline to receive complaints of fraud,        Work Planning and Prioritization
Goal 6.1 g     waste, abuse, and mismanagement as well as                  Quality Work Processes
               whistleblower complaints.
               Conduct training in fraud awareness and the role of       Work Planning and Prioritization
Goal 6.1 h     the OIG.                                                   Human Capital Management
                                                                           External Communications
                Investigate and resolve allegations of criminal and Work Planning and Prioritization
Goal 6.1 i      administrative misconduct or fraud efficiently and
                thoroughly.
Goal 6.2        Strengthen OIG Human Resource Management.
                Assure that the OIG staff possesses the skills and        Human Capital Management
                experience to accomplish the OIG mission through
Goal 6.2 a
                sustained training and career development
                opportunities.
                Develop and implement a comprehensive recruiting          Human Capital Management
                program that attracts a diverse population with the
Goal 6.2 b      knowledge, skills, abilities, and expertise necessary to
                make meaningful contributions to the OIG.




                                                F-1
                                                                                  Appendix F



             Create and maintain an environment within the OIG           Human Capital Management
             that attracts, develops, and retains a talented and          Internal Communications
Goal 6.2 c
             diverse workforce and where employees feel valued,
             appreciated, and respected.
             Develop and update goal-based and results oriented          Human Capital Management
             performance plans that are aligned with the OIG              Internal Communications
Goal 6.2 d
             strategic vision that creates and sustain a results-
             oriented, high-performance culture within the OIG.
             Enhance internal and external communication,
Goal 6.3
             coordination, and information sharing.
             Continue        to    improve      relationships    and      External Communications
Goal 6.3 a   communications between the OIG and Amtrak
             management.
             Establish collaborative relationships and regular            External Communications
Goal 6.3 b   communications with Congress, the Board of
             Directors, and regulatory oversight bodies.
             Enhance coordination and communication among the              Internal Communications
Goal 6.3 c   General Counsel, Audit, I&E, M&P, and                     Policy Management and Updates
             Investigations groups within the OIG.                          Quality Work Processes
             Improve OIG communications and work products,                 Internal Communications
Goal 6.3 d   including working papers, reports, memoranda, and             External Communications
             correspondence.                                                Quality Work Processes
             Promote the Hotline as a tool for reporting fraud,           External Communications
Goal 6.3 e   waste, and abuse through OIG publications and
             brochures, the Internet, and company-wide exposure.
Goal 6.4     Continue to Improve OIG Business Processes.
             Identify efficiencies and opportunities to streamline     Work Planning and Prioritization
Goal 6.4 a   OIG internal processes to conform with the OIG               Quality Work Processes
             community and Federal government best practices.
             Increase/expand participation in OIG community               External Communications
Goal 6.4 b
             activities, e.g., CIGIE, etc.
             Develop milestones and metrics for measuring                 Performance Measurement
Goal 6.4 c   timeliness and effectiveness of internal and external         Quality Work Processes
             operations.
             Develop and implement a robust strategic planning         Work Planning and Prioritization
Goal 6.4 d
             process.
             Identify the needs of stakeholders and provide fact-      Work Planning and Prioritization
Goal 6.4 e   based, independent, objective, and high quality             External Communications
             products and services to meet them.
             Leverage         OIG's     cutting-edge      technology
Goal 6.5:
             infrastructure.
             Provide the support structure and technological tools     Policy Management and Updates
             and equipment that will enable OIG staff to                   Quality Work Processes
Goal 6.5 a
             effectively and efficiently produce quality and timely
             products.


                                             F-2
                                                                             Appendix G


                                     Appendix G
                                     Bibliography

Chief Financial Officers Council and President’s Council on Integrity and Efficiency,
       “Best Practices Guide for Coordinating the Preparation and Audit of Federal
       Financial Statements.” September 2007.

Council of the Inspectors General on Integrity and Efficiency. “A Progress Report to the
      President (Fiscal Year 2008).” September 8, 2009.

Department of Education, Office of Inspector General, “Fiscal Year 2010 Work Plan:
      Promoting Accountability and Transparency.”

Department of Energy, Office of Inspector General, PCIE Audit Committee, “Offices’ of
      Inspector General Best Practices.”

Department of Health & Human Services, Office of Inspector General, “Report on the
      External Quality Control Review of the Audit Organization of the U.S.
      Department of Defense, Office of Inspector General.” December 2, 2009

Department of Justice, Office of Inspector General, “Improving the Grant Management
      Process.” February 2009.

Department of Transportation, Office of Inspector General, “Strategic Plan” September,
      2009.

Department of Veterans Affairs, Office of Inspector General, Hearing: “Oversight Efforts
      of the U.S. Department of Veterans Affairs (VA), Inspector General: Issues,
      Problems, and Best Practices at the VA.” Serial No. 110-4. February 15, 2007.

Environmental Protection Agency, “Cooperation with the Office of Inspector General.”
       August 7, 2009.

Farm Credit Administration, Office of Inspector General. “The National Railroad
      Passenger Corporation (Corporation or Amtrak) and its Office of Inspector
      General.” March 17, 2010.

Federal Deposit Insurance Corporation, Office of Inspector General, “Strategic Plan
       (1999-2004).”

General Accountability Office, “Activities of the Amtrak Inspector General.” March 4,
      2005.

General Accountability Office, “AMERICAN RECOVERY AND REINVESTMENT
      ACT: GAO’s Role in Helping to Ensure Accountability and Transparency.”
      March 5, 2009.


                                          G-1
                                                                            Appendix G

General Accountability Office, “Government Auditing Standards.” GAO-07-731G, July
      2007.

General Accountability Office, “INSPECTORS GENERAL, Office Consolidation and
      Related Issues.” GAO-02-575, August 15, 2002.

General Accountability Office, “INSPECTORS GENERAL, Independent Oversight of
      Financial Regulatory Agencies.” GAO-09-524T, March 25, 2009.

Legal Services Corporation, Office of Inspector General. “System Review Report on the
       Amtrak’s Office of Inspector General Audit Organization.” September 30, 2009.

National Procurement Fraud Task Force, Grant Fraud Committee, “A Guide to Grant
       Oversight and Best Practices for Combating Grant Fraud.” February 2009.

National Railroad Passenger Corporation, Office of Inspector General. “CSX On-Time
       Performance Incentives: Inaccurate Invoices and Lack of Amtrak Management
       Review Lead to Overpayments.” March 30, 2010.

National Railroad Passenger Corporation, Office of Inspector General. “Human Capital
       Management.” Evaluation Report E-09-03. May 15, 2009.

National Railroad Passenger Corporation, Office of Inspector General. “Oversight of
       ARRA-Funded Initiatives—Program Charter.” April 15, 2009.

National Railroad Passenger Corporation, Office of Inspector General. “Semiannual
       Report to Congress (4/01/09-9/30/09).” September 20, 2009.

National Railroad Passenger Corporation, Office of Inspector General. “Strategic Plan
       Fiscal Years 2010-2014.” March 16, 2010.

National Railroad Passenger Corporation, Office of Inspector General. Testimony:
       “Opportunities and Challenges Facing Amtrak in FY 2011 and Beyond.”April 29,
       2010.

Pension Benefit Guaranty Corporation, Office of Inspector General, Memorandum
       Report: “Lessons Learned from FY 2005 Financial Statement Audit.” April 6,
       2006.

Project on Government Oversight, “Inspectors General: Accountability is a Balancing
        Act.” March 20, 2009.

Project On Government Oversight, “Inspectors General: Many Lack Essential Tools for
        Independence.”February 26, 2008.




                                          G-2
                                                                             Appendix G

Small Business Administration, Office of Inspector General, “Strategic Plan (Fiscal
       Years 2006-2011).”

Willkie Farr & Gallagher LLP. “Report on Matters Impairing the Effectiveness and
       Independence of the Office of Inspector General of the National Railroad
       Passenger Corporation (Amtrak).” June 18, 2009.

U.S. Code, Title 5. Government Organization and Employees. Appendix Three. Inspector
       General Act of 1978 (Incorporating Inspector General Reform Act of 2008, Pub.
       L. 110-409.




                                          G-3
                                                                           Appendix H


                             Appendix H
               Amtrak OIG Organizational Assessment Panel


John M. Kamensky, Chair Associate Partner, IBM Global Business Services; Senior
Fellow, IBM Center for the Business of Government. Former Deputy Director, National
Partnership for Reinventing Government; Assistant Director, U.S. Governmental
Accountability Office; Staff, Texas Constitutional Convention; Staff, Texas House of
Representatives.



Cheryle A. Broom King County Auditor, King County Auditor's Office, State of
Washington. Former First Deputy Inspector General, Office of Inspector General, New
York State Metropolitan Transportation Authority; Legislative Auditor, Washington State
Joint Legislative Audit and Review Committee; Program Staff Director, King County
Council; Citizen Participation Project Coordinator, U.S. Department of Health, Education
and Welfare. Former positions with U.S. General Accounting Office: Evaluator;
Performance Audit Manager; Auditor; Program Budget Analyst; Investment Analyst.



Harold I. Steinberg Technical Director, Federal, State and Local Government
Performance Reporting Programs, Association of Government Accountants. Former
Deputy Controller/Acting Controller, Office of Federal Financial Management; Member,
Federal Accounting Standards Advisory Board; Partner-in-Charge, Federal Government
Practice, KPMG; Associate Director for Management, U.S. Office of Management and
Budget.



Regina V.K. Williams City Manager, City of Norfolk, Virginia. Former City Manager
and Assistant City Manager, City of San Jose, California; Senior Deputy City Manager
and Chief of Staff, City of Richmond, Virginia; Director of Personnel and Training,
Commonwealth of Virginia; Director of Personnel, City of Richmond, Virginia.




                                          H-1
